<html>
<title> - EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN FLINT, MICHIGAN, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                         FLINT,MICHIGAN, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-149

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-928 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>             
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
         William McGrath, Interior Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2016...................................     1

                               WITNESSES

Ms. Susan Hedman, Former Region 5 Administrator, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Darnell Earley, Former Emergency Manager, Flint, Michigan
    Oral Statement...............................................    22
    Written Statement............................................    25
Mr. Dayne Walling, Former Mayor, Flint, Michigan
    Oral Statement...............................................    81
    Written Statement............................................    83
Mr. Marc Edwards, Charles P. Lundsford Professor of Environmental 
  and Water Resources Engineering, Virginia Polytechnic Institute 
  and State University
    Oral Statement...............................................    92
    Written Statement............................................    94

                                APPENDIX

2015-09-24 EPA Email on Flint's Financial Practices submitted by 
  Mr. Chaffetz...................................................   220
2014-06-20 Order No 15 Water Authority to Mayor Walling submitted 
  by Mr. Chaffetz................................................   221
2015-07-08 Mr. Del Toral Email Denied Milwaukee Travel submitted 
  by Mr. Chaffetz................................................   223
2015-07-15 Mr. Del Toral Email Worried EPA Giving False LCR Info 
  submitted by Mr. Chaffetz......................................   225
2015-09-22 Del Toral EPA to Poy Bair Damato Email submitted by 
  Mr. Chaffetz...................................................   223
2015-11-03 EPA Legal Memo on Corrosion Control submitted by Mr. 
  Chaffetz.......................................................   237
2014-03-07 Earley-Flint EM to McCormick-Detroit WSD-Flint Water 
  Contract w Detroit re 2-12 submitted by Mr. Clay...............   239
2016-01-25 Salon ``It's not just a Flint problem'' submitted by 
  Mr. Lieu.......................................................   241
RESPONSE from Mr. Earley to Questions for the Record.............   243
RESPONSE from Dr. Edwards to Questions for the Record............   247

 
  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                        FLINT, MICHIGAN, PART II

                              ----------                              


                        Tuesday, March 15, 2016

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2141, Rayburn Office Building, Hon. Jason Chaffetz [chairman of 
the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, Lummis, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, Carter, 
Grothman, Hurd, Palmer, Cummings, Maloney, Norton, Clay, 
Connolly, Cartwright, Kelly, Lawrence, Lieu, Watson Coleman, 
Plaskett, DeSaulnier, Welch, and Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    Ms. Hedman from the EPA is supposed to be here. Ms. Hedman, 
are you here?
    [No response.]
    Chairman Chaffetz. I should say she's formerly from the 
EPA.
    As I said, the Committee on Oversight and Government Reform 
will come to order. Without objection, the chair is authorized 
to declare a recess at any time.
    Ms. Hedman is now here. We will go ahead and start.
    Flint, Michigan was a financial disaster and had the 
highest water rates in the Nation, and yet some of the poorest 
water. In the spring of 2013, emergency manager, Ed Kurtz, 
approved a plan that was going to change the trajectory of the 
water.
    In a 7 to 1 vote, the city council also voted to support 
this, although they did not have the authority to execute that. 
They were going to move from Detroit Water to the Karegnondi 
Water Authority. It was a roughly $200 million build for 
cheaper water and associated jobs that would come along with 
it. Detroit Water canceled the contract a few days later, so 
Flint had a year to find another source of water, so they went 
with a Flint water source.
    In April of 2014, a switch is made, and the problems 
begin--bacteria, TTHM issues, Legionella, lead in the water. 
These are all some of the things that happened. Keep in mind, 
there is no acceptable level--none--no acceptable level of lead 
in any water. But these are when the problems started.
    LeAnne Walters, who is here in the audience today--we 
appreciate the brave nature in which you have stepped forward. 
She is a citizen. She is not a water expert, but she stepped 
forward. She did the difficult thing. And somehow, someway she 
found the fortitude to get a hold of the EPA in February of 
2015 where Miguel del Toral at the EPA came out to Michigan and 
actually started doing some testing.
    By June of 2015, a report was finalized. That report was 
then leaked, if you will, it was put out there. We have with us 
the mayor at the time, Mayor Walling. And look at his resume. 
Mayor Walling is a smart person. He is well educated. He has 
been very great in the community. And he went out on 
television, and I want to show a clip from that television 
because there is a reason why he actually went on television. 
And I want to show that clip now.
    [Video shown.]
    Chairman Chaffetz. That was July 8th of 2015. The report 
was finalized by Miguel del Toral in June. I think we are going 
to hear testimony that Ms. Hedman and EPA communicated to the 
mayor that it was safe to drink the water, and that message was 
then conveyed to the citizens. And it was not until January of 
this year that the EPA actually took some definitive action.
    Now, it is not to say that the EPA is the only one at 
fault. The Department of Environmental Quality of the State of 
Michigan is also at fault here. But if the EPA or the Michigan 
Department of Environmental Quality would have taken action in 
the summer of 2015 when the EPA Region 5 regulations manger, 
Miguel del Toral, wrote the memo to his superiors warning of 
the dangerously high levels of lead in the drinking water, 
perhaps none of this would have happened.
    What is sickening about this is it was totally avoidable. 
The former head of Region 5, Ms. Susan Hedman, who is with us 
today, dismissed and downplayed this memo calling it ``a 
preliminary draft,'' and asserting, ``It would be premature to 
draw any conclusions.'' So the residents of Flint continued to 
drink the water, poisoning them and their families.
    The next opportunity for EPA to take action came from 
outcries for help from city officials. Congressman Dan Kildee 
was also very engaged in this. It reached a fever pitch in 
September of 2015, and still no action was taken. In fall of 
2015, local Flint residents filed an emergency petition with 
the EPA. Ms. Hedman continued to dismiss the problem, and 
claimed the EPA was monitoring the situation.
    In December of 2015, the City of Flint declared a state of 
emergency. A month later, Governor Snyder declared a state of 
emergency for Flint, activated the State's Emergency Operations 
Center, and requested a Federal declaration of disaster. 
Finally on January 21st, 2016, nearly 7 months after Miguel del 
Toral's memo, the EPA issued an emergency administrative order 
citing, ``Imminent and substantial endangerment exists'' with 
regard to the high levels of lead in the Flint water supply.
    But how many more people were poisoned in those 7 months? 
How many illnesses were worsened in those 7 months? On that 
same day that emergency order went out, that same day Ms. 
Hedman rightfully resigned, but her resignation does not heal 
the sick and ease the suffering of the residents of Flint. What 
concerns me, and we will deal with on Thursday, is the action 
of resigning by Ms. Hedman was characterized by the EPA 
administrator as courageous. It was courage according to the 
administrator. But we will, like I said, deal with that on 
Thursday.
    What happened in Flint can never happen again, and it is 
almost unbelievable how many bad decisions were made. 
Government at every level--local, State, and Federal--made poor 
decisions. And our role on the committee is to ensure Federal 
agencies and employees do their job. According to the EPA's 
website, its mission is ``to protect human health and the 
environment.'' They failed at every single level. Instead the 
EPA seems to be working on other things, other priorities.
    I am going to enter some things into the record, and it is 
going to make some people uncomfortable. There have been a lot 
of accusations about was this driven by race. Was this driven 
by the fact that this was a poor city? Is this because they are 
under served? There are a lot of accusations out here.
    This is an internal memo, and before you put it up, I want 
you to understand who this is going back and forth with. This 
is Jennifer Cooks, EPA Michigan program manager, Region 5, 
Debbie Baltazar, EPA Region 5 branch manager, Timothy Henry, 
EPA Region 5 associate director of the Water Division, and 
Steve Marquardt--I do not how to pronounce his name--EPA 
environmental engineer.
    This is an internal memo. Go ahead and put it up. September 
24th. ``Perhaps she already knows all this, but I'm not so sure 
Flint is the community we want to go out on a limb for.'' Are 
you kidding me?
    The EPA administrator says that Susan Hedman was courageous 
for resigning. It did not take us but a couple of hours once we 
got these memos to find the problem here. You can take down 
that.
    Why is Flint not the community they go to? You know, of all 
the communities out there, the one that is having the toughest 
time is the one that needs the most protection. And you can 
shake your head and say, oh, yeah. But the EPA had every 
opportunity to make the right move here, and they did not.
    And the Department of Environmental Quality, do not think 
you get off the hook either because of the one the things that 
is fundamentally and totally wrong here is they had the 
information and they would not release it to the public. The 
Congress now, at least the House, has passed a piece of 
legislation saying when you have this information, you have to 
release it within hours. That is just common sense. It should 
not take an act of Congress to tell the EPA that they need to 
make this information public.
    We are going to a good, vibrant hearing today. So I would 
unanimous consent to enter this into the record.
    Without objection, so ordered.
    Chairman Chaffetz. I also would like to enter into the 
record a Darnell Earley directive, an Order Number 15, dated 
June 20th, 2014, turning over to Mayor Walling form Darnell 
Earley, the emergency manager at the time, the day-to-day 
operations for the Department of Planning and Development and 
the Department of Public Works.
    Without objection, so ordered.
    Chairman Chaffetz. An email from Miguel del Toral. This is 
correspondence back and forth dated July 8th, 2015. And one of 
the concerns is you got a Miguel del Toral. He is pretty much 
on the line, right? He is right there on the front lines. One 
of the things I have heard that is probably the most disturbing 
is that he felt like he was retaliated against. In fact, we had 
a hearing last year about the actions of Susan Hedman in Region 
5 and the retaliation, three whistleblowers coming up talking 
about retaliation efforts.
    And here you have Miguel del Toral on July 8th, finally 
gets fed up. One of the things he said is, ``It almost sounds 
like I'm stuck in a corner holding up a potted plant because of 
Flint. One misstep in 27-plus years here, and people lose their 
minds.'' A guy who was not allowed to travel. He suddenly had 
to go to ethics training. He had to do all these other things. 
That is how Region 5 and the EPA was operating.
    This guy should be put up as getting a raise. You want to 
give a bonus to somebody? Give it to Miguel del Toral. He was 
doing the right thing. Instead he is being reprimanded. And I 
would ask that this be entered into the record as well. Without 
objection, so ordered.
    Chairman Chaffetz. On July 15th, 2015, I will enter this 
also into the record. Without objection, so ordered.
    [The information follows:]
    Chairman Chaffetz. And then finally, Miguel del Toral gets 
fed up on September 22nd of 2015. This is how he starts the 
email: ``This is no surprise. Lead lines plus no treatment 
equals high lead in water, equals lead poisoned children.'' 
This is how it starts in September, and the EPA did not do 
anything until January. I do not understand that. This is the 
kind of thing that has to immediately get out into the public. 
Immediately.
    Let me read another paragraph from this email. ``At every 
stage of this process, it seems we spend more time trying to 
maintain state and local relationships than we do trying to 
protect the children. I said this from the very beginning, and 
I will say it again. You do not have to drop a bowling ball off 
of every building in every city to prove that gravity and 
science will work the same everywhere. It is basic chemistry.''
    I ask unanimous consent to enter that into the record.
    Without objection, so ordered.
    Chairman Chaffetz. And I ask unanimous consent to enter 
into the record an EPA internal memo, November 3rd, 2015.
    Chairman Chaffetz. ``After reviewing the rule with our 
Office of General Counsel, it appears there are different 
possible interpretations of the lead-copper rule with respect 
to how the rule's optimal corrosion control treatment processes 
apply to this situation, which may have led to some uncertainty 
with respect to the Flint water system.''
    The law, something already passed out of this Congress, the 
Lead and Copper Rule is supposed to be updated every 6 years. 
We are now being told it will not be updated until 2018, 12 
years after it was supposed to. And you will hear back and 
forth in the correspondence about concern from the State, and 
the Department of Environmental Quality what are they supposed 
to do? And this is the general counsel--I am sorry--the 
director of the Office of Groundwater and Drinking Water 
saying, yeah, this continues to be a problem. Mr. Edwards has 
highlighted this as an ongoing problem.
    So there is a lot here to discuss, okay? This should never, 
ever have happened in the first place. With that, I will now 
recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I want to thank you for holding 
this hearing today and for agreeing to our request to obtain 
documents as part of this investigation, and for calling the 
person who has not been mentioned yet, Governor Snyder, to 
testify on Thursday. Some people in your position might have 
shied away from this investigation, but you came through on 
your promises, and I thank you for that.
    I also want to thank you for agreeing to our request to 
conduct transcribed interviews of key witnesses. Last week our 
staff traveled to Michigan to interview Dan Wyant, the former 
director of the Michigan Department of Environmental Quality. 
He, too, has not been mentioned yet.
    Mr. Wyant resigned on December the 29th, the same day the 
governor's task force issued its damning report. The governor's 
task force. According to that report, Mr. Wyant's staff told 
officials in Flint that corrosion control treatment was, and I 
quote, ``not necessary.'' Mr. Wyant said that.
    Mr. Wyant's staff also misinterpreted the Federal Lead and 
Copper Rule, and their failures, and I quote, and this comes 
from the governor's task force now, ``Led directly to the 
contamination of the Flint water system.'' Again, this is all 
according to the governor's own task force.
    Mr. Wyant was a very difficult witness who evaded many of 
our questions. Last December he apologized to the people of 
Flint, but he was not remorseful or apologetic in his interview 
with the committee. In fact, he disputed almost everything the 
governor's task force concluded about his failures.
    Despite this obstruction, Mr. Wyant did tell us an 
interesting fact, and this was very, very interesting. He said 
in all the time he served as director, and despite all of the 
public outrage about the State's inaction, the topic of Flint 
water was never raised in any cabinet meeting, not by Mr. 
Wyant, not by the governor, and not by anyone else. Ladies and 
gentlemen, there is something wrong with that picture.
    That was all the way through December of last year. I do 
not know if this is accurate, but if it is so, it is absolutely 
astonishing. In addition to interviewing Mr. Wyant, our staff 
also interviewed one of Governor Snyder's emergency manager for 
Flint, Jerry Ambrose. The State law that Governor Synder 
championed in 2011 gave him authority to basically 
disenfranchise local officials, overrule their votes, and 
appoint his own emergency managers with complete power over the 
city's decision making.
    City employees were required to obey their orders. During 
his interview, Mr. Ambrose told us that his number one 
priority--his number one priority--and the top priority of all 
of the governor's emergency managers was to cut spending. Cut 
spending. Everything else was viewed through the lens of cost 
cutting, and public health and safety clearly suffered as a 
result.
    This is why in March of 2015, when the Flint City Council 
voted to reconnect the clean drinking from Detroit, Mr. Ambrose 
used his power to overrule their vote. He thought it was too 
expensive, and it was cheaper to keep using corrosive water 
from the Flint River. Something is wrong with that picture.
    Even though the State of Michigan had major budget 
surpluses, and Mr. Ambrose told us that he never once--not 
once--asked for funds to help Flint switch back to clean 
drinking water from Detroit.
    Mr. Chairman, our investigation is not complete. We have 
another interview coming up with Edward Kurtz, the governor's 
second emergency manager in Flint, and there are key questions 
he needs to answer. For example, there was a general agreement 
that shifting from Detroit Water to the new pipeline being 
built by the Karegnondi Water Authority, or KWA, could save 
money. But the KWA pipeline was still under construction, and 
there was going to be a gap of about 2 years. Genesee County 
chose to stay on Detroit Water during this period, but Mr. 
Kurtz hired an engineering firm to use the Flint water as the 
primary source of drinking water.
    We have yet to see any detailed studies before this switch 
analyzing what would need to be done to ensure that the water 
coming out of the taps would be safe, and how much that might 
cost. Where are the analyses? Where are the documents? We have 
not seen them.
    Finally, we have heard Republicans focus their criticism 
almost extensively and exclusively on the EPA. I agree. The EPA 
officials could have done more, and I agree that everyone at 
fault must be held accountable. If you will recall, Mr. 
Chairman, when you asked me about bringing the head of the EPA, 
I said bring every single person that might have anything to do 
with this. I am not trying to protect anybody except the people 
of Flint.
    But under Federal law and regulations, States have the 
primary responsibility to enforce the Safe Drinking Water Act. 
In this case, Michigan officials displayed, and I quote, ``an 
abysmal public response.'' That is according to the governor's 
task force. I did not say that. The governor's task force said 
that. The actions were, and, again, the governor's task force, 
``Simply insufficient to the task of public protection.'' 
Again, those are not my words. They are the words of the 
governor's task force.
    And the task force concluded with this as I close, and I 
quote. They said, ``We believe that the primary responsibility 
for what happened in Flint rests with the Michigan Department 
of Environmental Quality.''
    And so, we will continue our investigation. There are 15 
people that Congresswoman Lawrence and I asked that we meet 
with and have conducted interviews of. None of them would 
cooperate, and so we still have work to do.
    And, again, Mr. Chairman, I mean it sincerely. I thank you 
for holding this hearing. I thank you for holding the hearing 
on February 3rd, today, and the one coming up on Thursday.
    With that, I yield back.
    Chairman Chaffetz. Thank you. I appreciate that.
    We will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Chairman Chaffetz. I will now recognize our panel of 
witnesses.
    We welcome Ms. Susan Hedman, former Region 5 administrator 
at the United States Environmental Protection Agency, Mr. 
Darnell Earley, former emergency manager of the City of Flint, 
Michigan. It is important to note that there have been a couple 
different emergency managers. Mr. Earley served for portions of 
that time, not the entire time.
    Mr. Dayne Walling is the former mayor the City of Flint. He 
was elected initially in August of 2009 in a special election, 
reelected to a 4-year term in 2011. And Dr. Marc Edwards, the 
Charles P. Lundsford Professor of Environmental and Water 
Resources Engineering at the Virginia Polytech Institute and 
State University. Mr. Edwards' contribution to this process has 
been invaluable. I appreciate his participation here as really 
somebody independent who understands the technicalities of the 
water. And his unbelievable dedication of time, and effort, and 
expertise has been most appreciated by both sides of this 
aisle.
    I know that Mr. Cummings and a number of others have gone 
to Flint. I was in Flint this weekend along with some of the 
Michigan delegation, and there was Mr. Edwards on the ground 
talking to people in Michigan answering their questions. And we 
appreciate your commitment and your perspective here.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. If you will all please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [A chorus ayes.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
all witnesses answered in the affirmative.
    Each of your written statements will be entered into the 
record in its entirety. In order to allow time for discussion 
and questioning by members, we would appreciate if you would 
limit your oral testimony to 5 minutes.
    Ms. Hedman, you are now recognized for 5 minutes. Turn on 
the mics there.

                       WITNESS STATEMENTS

                STATEMENT OF SUSAN HEDMAN, PH.D.

    Ms. Hedman. Good morning, Mr. Chairman, Ranking Member 
Cummings, and distinguished members of the committee. I'm Susan 
Hedman, the former EPA Region 5 administrator. Thank you for 
this opportunity to testify about my role in EPA's response to 
the Flint water crisis and the reasons that I decided to 
resign.
    I first learned that Flint was not implementing corrosion 
control on June 30th, 2015 approximately 14 months after the 
city started using Flint River water that was not treated with 
orthophosphate. The very next day I offered technical 
assistance to Flint's mayor, assistance from EPA's experts on 
lead and drinking water distribution systems.
    The following week, we issued our first statement 
encouraging Flint residents to contact their water utility for 
lead testing, and providing information about limiting exposure 
to lead in tap water. On July 21st, 3 weeks after I first heard 
about this problem, the Michigan Department of Environmental 
Quality agreed with EPA's recommendation to require Flint to 
implement corrosion control as soon as possible, a 
recommendation that my staff had been making since late April 
when they first found out that corrosion control was not being 
implemented.
    That should've solved the problem. It did not. During the 
weeks and months that followed, MDEQ was slow to deliver on our 
agreement from July 21st, and the City of Flint was hampered by 
a lack of institutional capacity and resources. EPA responded 
the only way we could, by working within the cooperative 
federalism framework of the Safe Drinking Water Act.
    That framework assigns legal primacy to States to implement 
drinking water regulations, and give EPA the job of setting 
standards and providing technical assistance. So in keeping 
with that framework, we provided technical support to the State 
and the city to implement corrosion control and to provide the 
assistance that Flint residents needed to limit their exposure 
to lead.
    Most of the time, this cooperative federalism model works 
well, even in a crisis. In fact, it worked exactly the way it's 
supposed to work when the Toledo water crisis occurred in 2014. 
But as we all know, it did not work in Flint.
    Consequently, EPA was forced to evaluate the enforcement 
tools available under the Safe Drinking Water Act, which are 
more limited than the enforcement provisions of other 
environmental statutes. And while I used the threat of 
enforcement to motivate the State and city to move forward, we 
found that the enforcement options available to us were of 
limited utility last fall due to the unique circumstances of 
this case.
    In the end, with the help of the EPA Flint Task Force, 
corrosion control was finally implemented, and testing now 
indicates that the protective coating that prevents lead from 
leeching into tap water is being restored. That's the good 
news. The bad news is that this problem should never have 
happened in the first place, and I need to remind you EPA had 
nothing to do with that.
    Finally, I'd like to say a few words about my resignation. 
I resigned in part because of the false allegations about me 
that were published in early January when EPA was unable to 
correct the record before those allegations began to damage the 
Agency's ability to perform critical work in Flint. By the 
third week of January, I was widely portrayed in the media as 
someone who ``sat on the sidelines during the crisis and 
downplayed concerns by an EPA scientist about lead in the 
water.'' That's completely untrue.
    My testimony today and the material in Appendices 2 and 3 
make clear that I did not sit on the sidelines, and I did not 
downplay any concerns raised by EPA scientists or apologize for 
any memos they wrote. In fact, I repeatedly asked for a final 
memo about lead in drinking water in Flint in a form that EPA 
could publicly release. And when MDEQ attacked a Region 5 
scientist by calling him ``a rogue employee,'' I immediately 
called the MDEQ director to complain, and in a subsequent call 
with the MDEQ director and the governor's staff, I made it 
clear that this scientist is a valued member of the Region 5 
water team, a point which I made even clearer when I 
subsequently appointed him to the Flint Task Force.
    There wasn't time for these explanations in January in the 
wake of all the emergency declarations. Flint residents had 
lost trust in government, and the false allegations about me 
gave the people of Flint less reason to trust EPA. On the day I 
resigned, I sent a note to Administrator McCarthy saying in 
light of the allegations that have been made about me and the 
time it will take to set the record straight, I think this is 
the best course of action to ensure the effectiveness of EPA's 
response to the Flint water crisis, and to make sure that Flint 
residents get the help that they deserve.
    That was one reason for my resignation, but there was 
another. Quite simply, this tragedy happened on my watch. I did 
not make the catastrophic decision to provide drinking without 
corrosion control treatment. I did not vote to cut funding for 
water infrastructure or for EPA. And I did not design the 
imperfect statutory framework that we rely on to keep our water 
safe. But I was the regional administrator when this crisis 
occurred. Having spent my entire adult life as an advocate for 
the environment and public health and much of that time 
representing citizen groups, I knew that only one thing 
mattered to Flint residents: the water wasn't safe to drink.
    What happened in Flint should not have happened anywhere in 
the United States, and I was horrified that it happened in my 
region, the Great Lakes Region. I thought and still think that 
resigning was the honorable thing to do.
    Although I have left government service, I've not stopped 
worrying about the people of Flint. I'm very encouraged to see 
that the corrosion control treatment that was implemented in 
December is recoating the pipes and that the water may be soon 
be safe to drink. I'm even more encouraged to read that there 
is growing congressional support for funding to replace the 
lead surface lines in Flint, and to fund water infrastructure 
throughout the country.
    I'd like to close by asking all of you to support that 
legislation and, more generally, to support the long overdue 
investments that are needed in this Nation's water 
infrastructure.
    Thank you for this opportunity to testify. I welcome any 
questions.
    [Prepared statement of Ms. Hedman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Earley, you are now recognized for 5 minutes.

                  STATEMENT OF DARNELL EARLEY

    Mr. Earley. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, Congresswoman Lawrence from Michigan, and to the 
other members of this committee, I, too, thank you for the 
opportunity to appear at today's hearing. It gives me an 
opportunity to share with you any and all factual information 
regarding the public water crisis in Flint, Michigan.
    My name is Darnell Earley. I've been a public servant for 
nearly 40 years in Michigan fulfilling roles as a city, 
township, county manager and administrator, as well as a state 
government appointee. I've also served as acting mayor Flint 
during the time I was city administrator, and I would hope that 
you would glean from my comments this morning that I have a 
deep affinity for the City of Flint and for the people that 
reside there.
    I recently served as one of four emergency managers 
appointed to Flint by Governor Rick Snyder during the period 
discussed, and that was between 2011 and 2015. My appointment 
was October 2013, and I served until January of 2015. And some 
on these committees, as I listened to the hearing before, 
expressed concern about the emergency manager law and its 
negative effect on communities. The law certainly does not 
provide for limitless disenfranchisement and total disregard of 
the community, its elected officials, and certainly not its 
people.
    During my tenure as a city manager and as a township 
manager, I've always--always--involved the elected and 
appointed officials in the management of the day-to-day 
operations of the city. I did no different in Flint. Indeed as 
the chairman has just shared with you, I signed an order 
delegating day-to-day operational authority over not only the 
Department of Planning and Development, but over the Department 
of Public Works, which included the Flint water treatment 
plant.
    I assigned that to the mayor. The mayor served as part of 
our core team, as part of our administrative staff, and had 
day-to-day responsibilities that I consulted with him as well 
as other members of our core team about the day-to-day 
operations of the City of Flint. That's what city managers do.
    As the crisis in Flint has unfolded, we've all now 
witnessed some very difficult and inexcusable actions on the 
part of governmental agencies, delay, some inexplicable 
miscalculations about protocol. And in the midst of all this 
crisis, I must tell you that I believe that I have been 
unjustly persecuted, vilified and smeared both personally and 
professionally in the media and by some local, State, and 
Federal officials, as well as by a misinformed public. It's 
important for me to state that because part of my main reason 
or being here today is set the record straight, and to make 
clear that people understand that the role of an emergency 
manager is designed to benefit a community and to help it 
regain its financial solvency and stability.
    There are four clear points I want to make regarding my 
comments with you. The first is that the decision to switch 
from DWSD, the Detroit Water and Sewage Department, to KWA was 
a local decision. As the chairman has just shared with you, the 
city council voted to move from the DWSD to the KWA. This was 
not an immediate kind of decision made in a vacuum. There have 
been discussions about leaving the Detroit Water and Sewer 
Department and building its own water system since the time 
that I was there as city administrator, from 2001 to 2004. So 
this is not new discussion.
    The second point I want to make is that I made no decision 
about the use of the Flint River. That was all a part of the 
discussions of moving from DWSD to KWA, having a 2-year period 
within which we had to find water. The city had to have water. 
In the notice from the Detroit Water and Sewage Department that 
they sent, they terminated the contract which left the city 
with no viable options for water. The Flint River had served as 
the backup for the DWSD water system, and it also served as the 
primary water source for the City of Flint prior to the mid-
1960s. So this was a known commodity.
    The fact that I was EM at the time that the switch was made 
does mean that it was my decision. And that's an important 
point to make because there were four emergency managers 
appointed during that time. I had the responsibility of having 
it happen on my watch because the contract terminated, but in 
that process I involved everyone in the discussion. We did all 
that we could in order to move the city forward towards a new 
water system.
    And that brings me to my third point, and that is during my 
tenure as emergency manager, when complaints were raised 
regarding the water, the water treatment staff, everyone worked 
diligently to address those issues. The issues we were 
addressing, however, and I must make this very clear, we were 
related to the treatment and the chemistry of the river. Within 
the treatment of the chemistry of the river created residue 
that caused a lot of negative impact on the water. But those 
impacts had nothing to do with lead leeching into the pipes. We 
were not told of that as an issue. We were trying to create a 
situation of treatment for the TTHM, or the residual, if you 
will, for treating the water. So we did those things that were 
necessary.
    We gave two boil water advisories at the direction of the 
Michigan Department of Environmental Quality. Boil water 
advisories are common in the administration of water systems, 
but after two of those boil water advisories, I began to feel 
that we were not getting to the heart of the issue, and had 
asked that we bring in a separate water consulting authority, 
the Viola National Group, to take a look at this and find out 
what was going on. Even in their analysis, there was not 
mention of the lead leeching into the water.
    So we were treating water contaminated based on TTHM and 
other residual chlorides, not the lead issue. The lead issue 
surfaced after I completed my term as emergency manager in 
January of 2015. As we all know, we were grossly misled by the 
experts at MDEQ and EPA. And while I don't have any great pride 
in knowing that, I do think it is important because not only 
does the City of Flint depend on the regulatory agencies, but 
every city in the State of Michigan as well as the United 
States of America.
    Let me just also state, Mr. Chairman and members, know that 
I am sad and that I am very, very deeply hurt by what has 
happened on my watch as emergency manager. I'm disappointed in 
the water crisis in Flint. As I said earlier, I have a special 
affinity for the community and the people residing there. I 
used to live in Flint when I was city administrator. I have 
relatives there now. I have family members there. I've 
worshipped in the churches alongside the parishioners in the 
City of Flint. I've patronized its buildings. I went back to 
Flint as emergency manager because I believed I could make a 
difference. I, too, drank the water.
    As a former acting mayor of Flint, I sincerely regret what 
has transpired. The human nature inside of me cries out for a 
resolution of this matter on behalf of those who are less 
fortunate and do not have the capacity to make these things 
right. Well, we do have the capacity to do that. But this is a 
water treatment issue. This is not a leadership issue. This is 
not who's responsible, who can we blame. This is how do we fix 
a bad situation and make it better for a community that's now 
only about 60 miles from where I live, where I go, and I know 
the people. And not one day goes by that I do not pray for a 
resolution of this problem.
    Mr. Chairman and members of the committee, in closing, the 
hard work and dedication of many will be needed to solve this 
problem, and to be reasonably sure that it will never happen 
again. It is, therefore, my prayer that everyone's attention 
will now turn towards solving these challenges, including 
formulating plans to address the aged and crumbled condition of 
water distribution systems that exist not only throughout Flint 
and Genesee County, but throughout urban core America, because 
until we do this, many other cities are just one expert's 
mistake away from an outcome similar to the Flint water crisis.
    Thank you, Mr. Chairman and members of the committee. I'll 
be happy to answer any questions you may have.
    [Prepared statement of Mr. Earley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, Mr. Earley.
    We will now recognize Mayor Walling for 5 minutes. You are 
now recognized.

                   STATEMENT OF DAYNE WALLING

    Mr. Walling. Good morning, Chairman Chaffetz, Ranking 
Member Cummings, and honorable members of the committee. I also 
thank you for the opportunity to present testimony and to be 
invited to this hearing.
    The drinking water crisis in Flint is a catastrophe that's 
had a devastating effect on our families, our most vulnerable 
children and seniors, our schools, neighborhoods, businesses, 
the entire community. Flint is a strong city. It's going to 
survive. With the right support it will thrive. But Flint never 
should have been in this situation.
    As a father raising my own family in Flint, I'm deeply 
concerned for the children and all the people who have been 
affected. I am sorry this crisis happened every single day. I'm 
angry more was not done to respond to the water problems, 
especially by the State which controlled both the MDEQ and the 
city. I appreciate the committee's efforts to identify what 
went wrong so problems can be fixed, Flint can move forward, 
and this never happens again in America.
    From my experience as mayor, until November 2015, I have 
three main points. One, Michigan's financial manager system 
focused too much on cutting costs without adequate safeguards 
and transparency. The regulators provided false assurances to 
us about the safety of the water and withheld risks. And third, 
Governor Synder unfortunately discounted local concerns and did 
not act with urgency.
    The problems started with the switch to the Flint River for 
the city's drinking water under the control of a governor 
appointed financial manager mandated to cut costs. The switch 
was decided by EFM Kurtz in June 2013 who signed an engineering 
contract to upgrade the water plant, and who adopted a 2-year 
budget for the river water implementation without any public 
input or involvement from us as local elected officials. I was 
there. That's what happened.
    The actions taken by myself and the city council in March 
of 2013 to support the long-term use of a new Lake Huron 
pipeline did not include using the river as an interim source. 
The finance director's projections--finance director, Jerry 
Ambrose, who later became emergency manager--showed payments 
for Detroit Water being made until the new pipeline became 
operational.
    But the reality was the State and financial managers had 
full control of the city's budgets, finances, and personnel for 
nearly 4 years. And even as I and the city council were granted 
some responsibilities, the appointed managers continued to 
parcel out information and make all of the purchasing, 
personnel, and legal decisions in consultation with the State. 
I didn't sign one city contract or purchasing resolution during 
the time that the emergency managers were in place.
    From day one with the river, the State regulatory agency, 
the Michigan Department of Environmental Quality, provided 
assurances to us that the Flint water was safe and met the 
standards of the Safe Drinking Water Act. When I reached out to 
the EPA for guidance, I did receive information and assistance, 
but the full risks were not shared.
    I had my own concerns about the river, was hearing concerns 
from the public, but I did rely on the information provided 
from the MDEQ and the appointed public works leadership. My 
family and I drank the water in our home. I echoed these 
assurance to the public, which I wholly regret and will never 
do again.
    We know now that we were getting bad information and, 
worse, water. Children were poisoned with lead, and we found 
out because local doctors analyzed health data themselves 
despite continued resistance from the Michigan Department of 
Health and Human Services in October of 2015. I pushed for the 
return to Detroit Water as the fastest way to bring corrosion 
control in, and the county declared a public health emergency.
    Tragically, there were opportunities missed and dismissed 
that could have averted the water crisis. I called for reforms 
and programs in January 2015 to make the water safe with all 
test results publicly released. The city was releasing 
operational reports, but the lead tests were not being shared 
and disclosed.
    I contacted the governor directly with my plan as I believe 
any mayor in a crisis should do regardless of the emergency 
managers. My initial request was for $20 million, yet we 
received only $2 million in grants. Now the costs are hundreds 
of millions with an unknown number of children and families 
affected.
    The governor discounted the complaints, even of concerned 
pastors and parents, apparently from his office's emails 
because we were viewed as adversaries of the financial manager 
system with illegitimate claims, when, in fact, we're Michigan 
citizens with toxic water.
    As someone who continues to live and work in Flint, I hope 
more will be done to aid the city, help the city heal. Flint 
citizens have fought so hard. Our families have endured so 
much. We simply deserve the same safety and opportunities for 
our families and children in Flint as anywhere else in America.
    Thank you for the opportunity, and I look forward to your 
questions.
    [Prepared statement of Mr. Walling follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, Mayor.
    And now I will turn to Mr. Edwards. You are now recognized 
for 5 minutes.

                STATEMENT OF MARC EDWARDS, PH.D.

    Mr. Edwards. After hearing the testimony of Susan Hedman 
this morning, I can't help but comment on the qualities that 
seem to be valued in administrators at the EPA. Willful 
blindness, in this case to the pain and suffering of Flint 
residents, unremorseful for their role in causing this manmade 
disaster, and completely unrepentant and unable to learn from 
their mistakes.
    Ms. Hedman said EPA had nothing to do with creating Flint. 
EPA had everything to do with creating Flint. Malfeasance at 
the U.S. EPA from 2001 to the present has harmed cities all 
over the United States. And incredibly even as National Guard 
walked the streets of Flint distributing bottled water and 
installing filters on taps, Michigan and the EPA are able to 
say that Flint has never failed the Lead and Copper Rule.
    And this is possible because the EPA has effectively 
condoned cheating on the Lead and Copper Rule monitoring since 
2006. This is because EPA and other agencies caused a similar 
lead and crisis in Washington, D.C. from 2001 to 2004, that 
actually was 20 to 30 times worse in terms of health harm to 
children in Washington, D.C. And the completely covered that up 
for 6 years and wrote falsified scientific reports. And it 
created a climate in which anything goes across the United 
States, anything at all to cover up health harm from lead in 
drinking water.
    Since 2006 when we realized that this cheating was 
occurring, I worked with a small group of people who tried to 
expose these practices to EPA, and we failed. We failed to get 
EPA to take lead in water risks seriously, and because we 
failed I was not surprised when Flint occurred. I was expecting 
a Flint to occur.
    If a landlord were to engage in similar practices and 
through their negligence to allow even a single child to be 
exposed to lead paint risk, the EPA would argue for prosecution 
and incarceration. Yet EPA has allowed entire cities to be 
unnecessarily exposed to elevated lead in their drinking water, 
and they've covered up evidence of their unethical actions by 
authoring these falsified scientific reports.
    And they never apologized for what they did in Washington, 
D.C., and incredibly to this day they have not apologize for 
what they did in Flint, Michigan. No apology from EPA. 
Completely unrepentant and unable to learn from their mistakes. 
I guess being a government agency means you never have to say 
you're sorry.
    And yesterday I have to say I was dumbfounded to read an 
op-ed by EPA administrator, Gina McCarthy, that effective 
absolved EPA of any wrongdoing or any role in creating the 
Flint disaster. Aside from creating this climate in which a 
Flint was allowed to occur, I purposely observed, witnessed, 
and uncovered wrongdoing by Ms. Susan Hedman at the U.S. EPA in 
covering up this problem.
    Ms. Hedman at every step aided, abetted, and emboldened the 
unethical behavior of civil servants at the Michigan Department 
of Environmental Quality. She allowed Flint's children to be 
harmed. And why should she not suffer the same or a worse fate 
than a common landlord who does the same thing?
    Had Flint residents not fought for the truth with the 
assistance of compassionate outsiders, it's incredible the harm 
to Flint's children never would've been exposed. And so, to 
quote Ms. McCarthy's closing op-ed statement, I do agree with 
her, ``It's tragic it took a disaster of this sort to get this 
issue the attention it deserves. Let's do something about it.''
    Ms. McCarthy, you could start by acknowledging EPA's 
failure over the last decade to enforce the provisions of the 
Environmental Protection Agency Lead and Copper Rule. This is a 
critical and necessary first step to make EPA once again worthy 
and deserving of the public trust and its noble mission.
    Thank you.
    [Prepared statement of Mr. Edwards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, Mr. Edwards. We appreciate 
it.
    We will now go to questioning, and we will first recognize 
the gentleman from Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and I appreciate the 
fact that we have had a hearing. We are now having this hearing 
and another hearing, and I know that we are intent on getting 
answers and ultimately addressing the concerns of people, 
children, the faces that are in the room that we had the 
privilege to see this past Saturday in Flint standing alongside 
our colleague, Dale Kildee, as well.
    We want answers, but we want action, and ultimately we want 
solutions.
    Ms. Hedman, you say in your testimony, and I will reiterate 
it again. You read it. ``The bad news is that this problem 
should have never happened.'' And looking at the faces of the 
children, the community members there in Flint on Saturday, 
they would concur with you. As I would concur with you as well.
    But you went on to say as did Gina McCarthy, administrator 
of EPA in her article just referred to that I read with shock 
and awe that she would make the statements in the Washington 
Post that she did. But you made them today as well when you 
said, ``And I need to remind you EPA had nothing at all to do 
with that.''
    To be clear, you actually think the EPA had nothing with 
the crisis in Flint?
    Ms. Hedman. No.
    Mr. Walberg. Okay. Ms. Hedman, I have here in front of me 
Section 1431.
    Ms. Hedman. Yes.
    Mr. Walberg. It is the law. 1431 of the Safe Drinking Water 
Act pulled from the EPA's Web site this this morning, which 
describes the emergency powers authority given to the EPA ``in 
the event of an imminent--let me state that again--``an 
imminent and substantial endangerment to public health.'' Do 
you believe the people of Flint have at any time faced an 
imminent or substantial endangerment to their health?
    Ms. Hedman. Yes.
    Mr. Walberg. Then was this endangerment to the people of 
Flint not evident when the EPA learned of the high lead levels 
in June 2015?
    Ms. Hedman. Well, Section 1431 requires that there be both 
substantial endangerment and that the State fails or the city 
fails to take action.
    Mr. Walberg. Well, did they fail to take action?
    Ms. Hedman. Well ----
    Mr. Walberg. I think the answer is yes, do you not?
    Ms. Hedman. The legal advice that I got was that once the 
State had issued the order directing the City of Flint to 
implement corrosion control, and the mayor stepped forward to 
indicate that he would do as soon as possible, that it was 
likely that the State of Michigan would argue that there was a 
jurisdictional bar.
    Mr. Walberg. Well, I mean, argument is one thing. Dealing 
with the job that you have is another thing.
    Ms. Hedman. Yeah, and ----
    Mr. Walberg. The issue was we had seen so far the action 
was not being taken. Mr. Edwards and others, community members 
and others that we have all heard from thankfully, they pressed 
it. It was not happening. Why did the EPA not intervene and 
take control of the situation as soon as it learned of the 
Flint water crisis? This is a crisis to human health.
    Mr. Edwards, do you think Ms. Hedman's response was 
adequate?
    Mr. Edwards. Completely unacceptable and criminal frankly.
    Mr. Walberg. How soon should she have taken action 
according to law and according to human decency as well?
    Mr. Edwards. I do not know the law, but as a human being 
she should have told people immediately.
    Mr. Walberg. Ms. Hedman, in July 2015, you told Flint's 
mayor to disregard Mr. del Toral's preliminary memo that found 
high levels of lead in Flint water supply. Why did it take 
another 5 months for the final report to come out?
    Ms. Hedman. I never told the mayor to disregard that memo. 
In fact, if you look at Appendix 3 to my testimony, you will 
see what actually occurred during the conversation that I had 
with the mayor ----
    Mr. Walberg. There is great dispute on that coming across 
the board.
    Ms. Hedman. Yes. I wrote the email, and I know what I said. 
And if we could take the time to take a moment to talk about 
that, I think we could clear that up.
    Mr. Walberg. I am not sure we could. Mr. del Toral 
certainly has a different recollection of it, as well as 
responses to him. And I had the opportunity to talk with him in 
Flint this Saturday as well. Very different from what we are 
being told here, and that is the concern.
    Again, the human decency act. When the issue was brought to 
you by authorities in the field, by actual testing, the EPA did 
not do what it needed to do, even if the other entities going 
down to the local level and the State level were not doing 
their duty, and we are certainly going to ask them about those 
issues. And I look forward to their responses as well, Mr. 
Chairman.
    I see my time has expired. I yield back, and hopefully I 
can gain some other time from other individuals down the road.
    Chairman Chaffetz. I thank the gentleman, Mr. Walberg. I 
will now recognize the gentlewoman from New York, Ms. Maloney, 
for 5 minutes.
    Ms. Maloney. The Flint drinking water crisis is a national 
scandal, and it cries out for accountability from those that 
are responsible. And that is what we are trying to accomplish 
today.
    I would like to begin with Mayor Walling. Mayor Walling, in 
Mr. Earley's statement for this committee, he made several 
statements that specifically concern the involvement of 
yourself and the city council in the decision to switch to the 
Flint water. First, Mr. Earley alleges, and I quote, ``The 
concept of using the Flint River an interim water source was 
inherent in the city council's KWA water authority vote, and 
Kurtz's March 2013th order.''
    So, Mayor Walling, at any time did the city council ever 
vote on using the Flint River as an interim source of water?
    Mr. Walling. No.
    Ms. Maloney. Now, Mr. Earley never says that the city 
council voted on this issue. Rather he implies, he very clearly 
implies, that somehow their vote to join the KWA Water 
Authority meant that they approved the use of the Flint River 
as an interim source. So Mr. Walling, in your prepared 
statement today before the committee, I quote, ``The decision 
in June of 2013 to switch to the Flint River was contrary to 
the water plans and financial forecasts provided to me and the 
Flint City Council in March of 2013.''
    I am going to put on the screen a document entitled, 
``Original Projection Summary Comparison: The KWA and DWSD 
Water Authority to the Detroit Authority.'' And what is notable 
to me when you see this, this is a seamless movement. Never 
does this document mention the taking of water from the Flint 
River. Is that correct, Mr. Mayor?
    Mr. Walling. That is correct.
    Ms. Maloney. And this was what was put before the city 
council. Is that correct??
    Mr. Walling. That is right. That was March 2013.
    Ms. Maloney. And if I were a member of that city council, I 
would think that was a seamless movement, and that the Flint 
River was never touched, and that the KWA and Detroit Water 
would be what was there. Is that your interpretation of it?
    Mr. Walling. That was what was provided in the documents. 
That is what took place in the city council meetings, the 
comments that I and others made.
    Ms. Maloney. Now, Mr. Earley also alleges that he, 
``delegated all day-to-day operational responsibilities of the 
Department of Planning and Development and the Department of 
Public Works to Mayor Walling as of June 2014,'' which notably 
is after--after--the switchover. So, Mayor Walling, it appears 
to me that Mr. Earley is attempting to deflect blame for this 
crisis onto you and to the city council of Flint. What is your 
response to that?
    Mr. Walling. I was surprised when this statement was first 
made. It was made through an op-ed, I believe, in October of 
2015. And, you know, first of all, Mr. Earley at the time was 
serving as city manager in the City of Saginaw. He was not 
serving in the City of Flint. I was, and I know what happened 
and what the process was.
    The first frequently asked questions that the City of Flint 
provided in early February of 2015 when so many of the issues 
came out about the TTHM crisis was that the finance director 
and the city's public works director provided that 
recommendation to EFM Kurtz in June of 2013.
    Ms. Maloney. So in reality, to cut to the chase of it, who 
actually made the major decision related to the water issues in 
Flint? Who made those decisions?
    Mr. Walling. They were in place by Emergency Financial 
Manager Kurtz in June of 2013. That included an adopted 2-year 
budget that set the equipment, and purchasing, and personnel 
for the Department of Public Works for the next 2 years. That 
is what Mr. Earley later inherited.
    Ms. Maloney. And, Mayor Walling, my time is up, but just 
would Mr. Early have had the power to keep clean Detroit Water 
flowing if he wanted to?
    Mr. Walling. Yes. The emergency managers often amended the 
budgets that they were working with in consultation with the 
State.
    Ms. Maloney. And they had that power, not the city council.
    Mr. Walling. Correct.
    Chairman Chaffetz. I thank the gentlewoman. I will now 
recognize the gentleman form Michigan, Mr. Amash, for 5 
minutes.
    Mr. Amash. Thank you, Mr. Chairman, and thank you to the 
panel for being here. Thank you especially to Professor 
Edwards, who has been an extremely valuable expert in this 
area. And I share your concerns about the EPA and its role, and 
Ms. Hedman's role in this, and Mr. Walberg made many important 
points in that regard.
    I am going to ask some questions to Mr. Earley. Mr. Earley, 
you wrote a column for the Detroit News in October 2015. Is 
that correct?
    Mr. Earley. That is correct, sir.
    Mr. Amash. Mr. Chairman, I would like to ask unanimous 
consent to enter this op-ed into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Amash. You have made clear here today and in your 
column that the decision to switch over to the Flint River was 
made by the previous emergency manager and the city council, 
correct?
    Mr. Earley. That is correct.
    Mr. Amash. In your op-ed, you say, ``It fell to me to 
oversee the implementation,'' correct?
    Mr. Amash. That is correct.
    Mr. Amash. Now, also in your op-ed it says, ``It did not 
fall to me to question, second guess, or invalidate the actions 
taken prior to my appointment.'' Do you really believe that?
    Mr. Earley. I believe that based on the fact that there was 
no petition. There was no effort made to engage me to change 
what had already been implemented. When I ----
    Mr. Amash. I am sorry. So you believe as an emergency 
manager, as someone who is put in charge of the City of Flint, 
it does not fall on you to question, second guess, or 
invalidate any actions taken prior to your appointment?
    Mr. Earley. No. What I mean by that is that it does not 
fall to me to arbitrarily change that, and that is what I was 
referring to.
    Mr. Amash. Is it not the job of a city manager to question 
things? Is that not why you are brought in?
    Mr. Earley. That is part of the reason, yes.
    Mr. Amash. If as a congressman, if I took the position that 
it is not my job to question, second guess, or invalidate any 
actions that happened prior to my being here, would I be doing 
my job?
    Mr. Earley. Well, if everybody were telling you that the 
project was on course and everything was going well, there was 
nothing to second guess.
    Mr. Amash. So if Congress passes something in a previous 
term and I get elected, I am just supposed to say, oh, well, 
everything is okay. I do not have any work here. Is that right?
    Mr. Earley. What I am saying is that you would obviously 
have to do your own due diligence, but if it comes up that 
there is nothing to change, there is nothing to change. And if 
people are telling you that the project is on course. Keep in 
mind that was only one of many projects in a distressed 
community that the emergency manager was responsible for.
    Mr. Amash. So in your op-ed, you also say, ``At the time 
the decision was made, there was no way to predict such an 
unfortunate outcome.'' You also call it ``an unintended 
consequence with no blame to affix.'' So as a person appointed 
in this position or as an elected official like me, are we not 
supposed to concern ourselves with unintended consequences? We 
are just not supposed to think about those things?
    Mr. Earley. No, that is not what I am saying. What I am 
saying is that because of those unintended consequences, we now 
have what is known as the Flint water crisis. In hindsight, 
there is probably a lot more that everyone would have done, a 
lot more questioning everyone would have done. But when you 
have an 18-month window to turn around a distressed community 
going through its second round of State intervention, the 
object is to get the work done and enlist as many people as you 
can to assist you in getting that work done.
    Mr. Amash. Is it not your job to think about unintended 
consequences?
    Mr. Earley. Well, we always think about the possibility of 
hypotheticals, absolutely.
    Mr. Amash. And do you feel you did that in this case?
    Mr. Earley. Well, I believe based on the information we 
were given, we acted responsibly and did what we did knowing 
the information we had at the time. Yes, sir.
    Mr. Amash. All right. According to Michigan's emergency 
manager law, ``Upon appointment, an emergency manager shall act 
for and in the place and stead of the governing body and the 
office of chief administrator officer of the local government. 
Additionally, the emergency manager shall have broad powers to 
assure the local government's capacity to provide or cause to 
be provided as necessary governmental services essential to the 
public health, safety, and welfare.''
    What in your view is the emergency manager's role in 
overseeing the daily duties of city employees?
    Mr. Earley. Well, as I said earlier in my comments, as the 
city manager I have always involved the elected and the 
appointed officials in the work that I do. And I did no 
different as the emergency manager and involving them because 
they are the experts. They are the ones that handle the day-to-
day operations. They were very much involved in it, yes.
    Mr. Amash. So when a city has an emergency manager, whose 
responsible for ensuring compliance with State and Federal laws 
regarding safe drinking water?
    Mr. Earley. Well, regarding anything, the emergency manager 
obviously is the person responsible for making sure that those 
things get done, and I have always accepted that.
    Mr. Amash. So you take responsibility for that because in 
your op-ed you say, the headline is, ``Don't Blame EM for Flint 
Water Disaster.''
    Mr. Earley. I am trying to draw a distinction between 
responsibility and blame, sir. And we were all responsible by 
virtue of our roles. I was very responsible in my role as 
emergency manger.
    Mr. Amash. What role did you have, and what steps did you 
take in ensuring the water treatment plant was prepared to meet 
State and Federal drinking water standards, knowing that the 
Flint River would be the primary water source?
    Mr. Earley. Well, we had regular meetings on the progress. 
We are upgrading the plant as we got up to the switching over 
to the Flint Water. I had regular meetings with the treatment 
staff. The mayor was a part of some regular meetings that we 
had. We all had discussions about the progress and the things 
that were being encountered in this switch.
    Once we made the switch and we got the complaints about the 
quality of the water, we went to the DEQ. We got boil water 
advisories, which are common in the case of treating water. We 
had meetings on a couple of occasions with the MDEQ to talk 
about what is going and what is actually being treated.
    And let me again state for the record, in none of those 
meetings were the current issues that we are dealing with no a 
problem. They were not addressed. They were not issues brought 
to our attention. But we did everything we could to make sure 
we were being responsible to the complaints and the concerns 
about the quality of the water.
    Mr. Amash. I think responsibility involves paying attention 
to unintended consequences, thinking about what might happen.
    I see my time has expired. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from the District of Columbia, Ms. 
Norton, for 5 minutes.
    Ms. Norton. I thank you, Mr. Chairman. Mr. Edwards talked 
about willful blindness. I want to warn everybody about the 
willful blindness that is built into the separation of powers 
system, and that is why finger pointing of the Federal and the 
State side, either on this committee or among our witnesses, is 
quite inappropriate.
    Now, this committee has recognized this. To its credit, 
this committee passed this past February a bill, actually 
passed a law that requires the EPA to notify residents of high 
levels of lead when water samples show lead levels for the 
highest 10 percent of homes tested are above 15 parts per 
billion.
    Why do you think we needed a law? Because there is unusual 
deference on the part of Federal officials. And apparently it 
took a law to say when people's lives are in danger, when their 
health is in danger, there is an obligation to speak up when 
the State is not doing its part. Mr. del Toral did speak up to 
his supervisors, but he risked being a whistleblower, and we 
know what happens to whistleblowers in our system. So my 
questions are not aimed at finger pointing.
    It is clear, though, that once you have the slightest 
evidence of lead in the water wherever you are in the system, 
you better speak up because this is irreversible. You cannot 
turn this one around, people.
    So I have a question for Mr. Earley recognizing the Federal 
responsibility as well as the State responsibility, sir. But 
let us speak to your responsibility. You know, people are not 
crazy. They began to smell odors in the water. They saw the 
color of the Flint water change. And that started a month after 
the water plant began processing, during your watch, sir, the 
Flint water.
    Now, they began to speak out. They complained even about 
skin rashes and hair loss. Those complaints, it is our 
information, continued for 8 months while you were emergency 
manager of Flint. Did you ever consider given those complaints 
switching back to Detroit Water once the public started to 
sicken and to speak out?
    Mr. Earley. Well, let me just make, again, very clear that 
the fact of the complaints, we responded to those. We sent our 
water staff out and collected samples. But keep in mind we were 
also working very closely with the Michigan Department of 
Environmental Quality on these issues. And while the water did 
have some discoloration, we were told a number of reasons for 
that, none of which raised the fact that the water was not fit 
for human consumption.
    We relied on the information we received from the Michigan 
Department of Environmental Quality as this was a manageable 
issue. And we did what we ----
    Ms. Norton. Yeah, Mr. Earley, you have extraordinary powers 
as an emergency manager. Was money ever a concern or enough of 
a concern for you to ask the governor for State funds to 
reconnect to the Detroit Water System during your time, during 
your watch?
    Mr. Earley. Again, we were trying to manage the issue.
    Ms. Norton. And the smell of the water and the constant 
complaints were not enough of a warning for you to try to do 
something beyond rely on the experts. I mean, the experts seem 
to have been, Mr. Earley, in the public drinking the water.
    Mr. Earley. We relied on the Michigan Department of 
Environmental Quality, and we got the information from them, 
and ----
    Ms. Norton. All right. Mr. Earley, I am sorry. My time is 
limited. Sue McCormack of Detroit Water wrote to you offering 
to continue supplying water to Flint, Michigan until the Water 
Authority's project was complete. But you wrote back, ``There 
will be no need for Flint to continue purchasing water to serve 
its residences and business after April 17th, 2014.'' Why did 
you reject this offer to continue using Detroit Water as a 
source?
    Mr. Earley. Just to be clear, the letter you refer to went 
to the city clerk. At the time ----
    Ms. Norton. You had no knowledge of this letter.
    Mr. Earley. I was not the emergency manager at the time 
that the letter came in. By the time I got there, we had 
already been notified that the contract had been terminated, 
but we could still ----
    Ms. Norton. But you were the emergency manager before the 
switch was implemented on your watch. You could say, wait a 
minute, I am in charge now. Was this not your job to look at 
what should be done now now that you are in charge, sir?
    Mr. Earley. We did look at that, and, again, we followed 
the guidelines based on the information we were given. But 
importantly in that letter is that ----
    Ms. Norton. What about the warning that came, now, imagine 
receiving a warning from somebody in the line who says, ``I 
have people above me making plans to distribute water as soon 
as possible. I was reluctant to go before, but after looking at 
the monitoring schedule and current staffing, I do not 
anticipate giving the okay to begin sending this water out any 
time. If any water is distributed from this plant in the next 
couple of weeks, it will be against my direction.'' What more 
did you need, Mr. Earley?
    Mr. Earley. That did not go to me, ma'am. That did not go 
to me. That email went to the director of the Department, I do 
believe. It did not go to me.
    Ms. Norton. Your name is on the letter, Mr. Earley.
    Mr. Earley. You are talking two different things.
    Ms. Norton. What is the other thing, sir?
    Mr. Earley. Well, the letter from the DWSD and an email 
that came from one of the operators that talked about the 
distribution of water.
    Chairman Chaffetz. The gentlewoman's time has far expired. 
I will now recognize the gentleman from Florida, Mr. Micah.
    Mr. Mica. Mr. Chairman and members of the committee, I 
think this hearing is going to be known as the great finger 
pointing hearing. And we have got the Flint mayor throwing 
people under the bus. We have got the Flint emergency manager 
throwing people under the bus. And we have got Ms. Hedman, 
former EPA administrator for that area, throwing people under 
the bus. But somewhere it seems like people were asleep at the 
tap and not doing their job.
    Now, if the locals failed, and the mayor failed, and the 
emergency managers failed, and there were failures there, Mr. 
Edwards, what role would the Federal government have?
    Mr. Edwards. They are the last resort. They are the last 
line of defense. They are the last hope of Flint residents.
    Mr. Mica. And the reason we put EPA together was to protect 
people, right, in cities, in communities, and States where they 
did not act to protect the water of the people, right?
    Mr. Edwards. That is correct.
    Mr. Mica. Okay. Were they notified? Well, there are some 
heroes in this. First, the hero is, and she is here today, is 
Ms. Walters and her family because they notified the local 
people, and the Federal people, and everybody they could that 
they were poisoning their kids. Mr. del Toral wrote an 
incredible memo. He acted. Ms. Hedman, was he not an EPA 
official?
    Ms. Hedman. He is an EPA scientist.
    Mr. Mica. Yeah, he did a great job.
    Ms. Hedman. Yes, he did.
    Mr. Mica. A higher schooler could read his memo, which he 
produced. Here is a copy of his memo, June 24th. It tells you 
the violations of the city. It tells you the incompetence. Then 
it tells you the poisoning of their children. It is documented 
and all the steps, and the violations of Flint are listed here. 
Not just this, but they have a history. They are listed on the 
back. A higher schooler could read this and evaluate it.
    Now, you got that memo, right, Ms. Hedman?
    Ms. Hedman. I am not sure when I got that memo, but I did 
get it.
    Mr. Mica. Well, you got it, right? Okay, June. And, Mayor, 
you were aware of this, and you two talked, did you not? Did 
you talk to her about this memo, Mayor?
    Mr. Walling. Yes.
    Mr. Mica. You did talk to her. But, sir, I went back and 
checked to see if you talked to your constituent, the woman and 
family whose kids were being poisoned. We knew this early in 
2015. They knew it at the end of 2014. We had the tests here 
that proved, and he went in and he tested the pipes. He did 
everything.
    First they said the pipes were lead into the house. They 
were not lead. They were plastic. They were PVC. There was no 
lead in there. So you told her at the library on March 31st you 
were aware of it. You went to Ms. Walters and told her you were 
aware of the situation, and you would take care of it, right? 
You would do anything. Did you not tell that to your 
constituent?
    Mr. Walling. Yes.
    Mr. Mica. She showed up April 2nd, 2015 at your office, and 
they said you were gone for Easter, but they would be back with 
her on Monday, right? That is what they told her, I am telling 
you. And that is what she told me.
    Today is, what, 2016, March 15th. You have not been back 
with her since. But you were aware of this memo. You read this 
memo. They tried to suppress this memo. This was not a pretty 
memo because it said your constituents were being poisoned.
    So this is an incredible failure, I believe, at all levels, 
particularly the Federal level. That is our responsibility. 
When we get a memo like this from someone with the EPA doing 
their job, and a constituent who reports it, and we have the 
evidence of the poisoning. This Mr. del Toral is a hero, and 
the things he did, every test possible. He conducted every test 
possible, is that right? You read it, Mr. Edwards. Did you read 
this?
    Mr. Edwards. His memo has proven to be 100 percent accurate 
in every way, shape, and form.
    Mr. Mica. And yet ignored at the local level, ignored at 
the emergency management level, and then the worst thing. That 
is our responsibility. When all these levels fail, EPA. You 
never acted for, what, 5 months after this memo, Ms. Hedman?
    Ms. Hedman. That is incorrect. In fact, the following day I 
offered lead experts to the mayor.
    Mr. Mica. Yeah, what they did.
    Ms. Hedman. And within 3 weeks we had concluded an 
agreement with MDEQ to order Flint to issue corrosion control.
    Mr. Mica. And what did they do?
    Ms. Hedman. They issued an order ----
    Mr. Mica. Did they do it?
    Ms. Hedman. They did eventually.
    Mr. Mica. Eventually when?
    Ms. Hedman. They issued an order on August 17th directing 
the City of Flint to implement corrosion control on September 
3rd.
    Mr. Mica. And the time is ticking, and nothing is done, and 
you never went back on them. There was really no plan in place 
for more than 5 months.
    Ms. Hedman. That is not true.
    Mr. Mica. It was ignored. It is the whole truth and nothing 
but the truth, I hate to tell you. And, again, I think EPA also 
failed. So we had failure at multiple levels. Mr. Edwards, you 
have seen cases. You said this is not uncommon of how they 
failed across the country. Is that not the case in Flint?
    Mr. Edwards. Well, I mean, there is a climate out there 
where lead and water problems are covered up, people are 
cheating on the sampling, and that climate allowed Flint to 
occur. It allowed these unethical civil servants at MDEQ to 
claim that there was no problem in the water whatsoever, even 
when they were breaking Federal corrosion control law.
    Mr. Mica. Thank you.
    Mr. Jordan. [Presiding.] Thank the gentleman. Mr. Clay is 
recognized for his 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. You know, there were 
numerous red flags that should have led the State to agree to 
return to the Detroit Water System. Bacterial contamination in 
the water as early as summer 2014, the Legionella outbreak, the 
astronomical lead readings in LeAnne Walters' home, all of 
these early signs should have been reason enough to consider 
returning to a safe water supply. But the response was always 
the same. It was not in the emergency manager's financial plan 
for the city to return to the Detroit Water System.
    On January 9th, 2015, in response to concerns that had been 
raised about the safety of Flint's water, Mr. Early, you wrote, 
and I quote, ``Suggestions have been made that the City of 
Flint should return to using water purchased through the 
Detroit Water and Sewage Department.'' For many reasons, 
financial and otherwise, the City of Flint can ill afford to 
switch courses at this point.
    You also said it is not financially prudent to spend $18 
million to purchase water that meets the same DEQ standards as 
the water now available from the Flint River. Mr. Earley, 
obviously now we know that the water from the Flint River was 
not meeting the same standard as water coming from Detroit 
Water. Is that correct?
    Mr. Earley. Yes, sir.
    Mr. Clay. And then did you consider changing course at any 
point after serious concerns had been raised about the quality 
and safety of the river water?
    Mr. Earley. Well, at the time that you referenced, we had 
already enlisted the aid of another water expert to determine 
exactly what the causes were. We were trying to diagnosis the 
causes. Again, we were dealing with the issue of coliform, 
TTHM, E. coli, and other issues. We were not talking about lead 
at the time.
    The point is simply this. The City of Flint did not have 
the money.
    Mr. Clay. Yeah, but sometimes, I mean, look, common sense 
should take over. The General Motors plant stopped using the 
water when it started to rust new parts. What would that tell 
the average person? That means they need to stop drinking it. I 
mean, come on. Is that that difficult to determine?
    Mr. Earley. We continued to rely on the Michigan Department 
of Environmental Quality, and until such time as they deemed 
the water unsafe to drink, we were doing all that we could to 
manage the contamination and to also make the water accessible 
and potable.
    Mr. Clay. Okay, look. Look. After that January 15th letter, 
a few days later the director of the Detroit Water System sent 
you a letter offering to reconnect the City of Flint to the 
Detroit Water supply. Why did you reject the director's offer?
    Mr. Earley. I did not do that. I was gone from Flint. I had 
left Flint by that time that letter came out. That rejection 
was written by my successor. Again, there were four emergency 
managers during this period. That letter of rejection came from 
my successor.
    Mr. Clay. Okay. And so, it came down to you or your 
successor trying to save $18 million?
    Mr. Earley. No, it came down to the fact that the city did 
not have $18 million. They were already paying some of the most 
exorbitant and the highest water rates in the country. We have 
litigation pending now from the customers who are fighting the 
rates for the water, even before the contamination issues.
    Mr. Clay. Okay. Going along with your line of thinking 
then, when do we say, okay, public health and safety matters? 
And it is the responsibility of the State of Michigan or the 
EPA to step in and say we are endangering lives. We are 
damaging people for the rest of their lives. And when does that 
occur?
    Mr. Earley. From day one, sir. From day one.
    Mr. Clay. Yeah, but you did not do it.
    Mr. Earley. The issues of lead contamination came out in 
2015. They came out after that. The issues we were dealing with 
in terms of contaminated water were the TTHMs, the E. coli, and 
the coliform materials that were found in the water. And that 
was a result of the distribution system age. It was the result 
of the number of water main breaks that we had at that 
particular time.
    I mean, this was the perfect storm for things to happen 
while we were switching from one water source to another. But 
we tried to manage those.
    Mr. Clay. Well, I mean, but did not common sense tell you 
what General Motors did when they changed the water system that 
they were using because it was rusting the parts. What did that 
say to you?
    Mr. Earley. What we were told regarding that situation was 
because of the raw nature of the machine parts that General 
Motors was producing, the treatment materials we were putting 
in to treat the water was indeed having a negative impact on 
their products. But it did not correlate to a negative impact 
on consumption of the water according to the MDEQ.
    Mr. Clay. Mr. Chairman, for the record, I have a letter in 
response signed by Darnell Earley rejecting the Detroit Water's 
offer to change back. So make this part of the record, too.
    Chairman Chaffetz. [Presiding.] Without objection, so 
ordered.
    Mr. Clay. Mr. Chairman, I yield back.
    Chairman Chaffetz. And before the gentleman yields back, 
Mr. Edwards, I will give you an opportunity to respond to this 
inquiry as well. It sounded like you wanted, okay.
    The gentleman yields back. I now actually recognize myself 
for 5 minutes.
    Ms. Hedman, when did you first know there was a problem 
about water in Flint?
    Ms. Hedman. The first time I was briefed was December of 
2014. I was briefed on the TTHM issue, the disinfection 
byproduct issue. My staff have instructions that when there is 
a significant violation in a system to bring it to my 
attention. And they briefed me shortly before ----
    Chairman Chaffetz. So you knew about it in 2014. When did 
you have your first conversation with Mayor Walling?
    Ms. Hedman. My first conversation about TTHM, about the 
disinfection byproducts, occurred in late February. He 
requested a drinking water expert in that area, and I supplied 
him with an expert from the EPA lab in Cincinnati.
    Chairman Chaffetz. So, Mr. Walling, you went on television 
in July of 2015 and told everybody that it was safe to drink 
the water. Did you just do that on your own, or who told you 
that that was a viable thing to say?
    Mr. Walling. MDEQ had repeatedly provided assurances. We 
heard over and over again in our technical advisory meetings, 
discussions with staff that the water was meeting the 
standards, that it was safe to drink.
    Chairman Chaffetz. Did you have a discussion with the EPA?
    Mr. Walling. Dr. Hedman and I spoke around that time after 
the del Toral memo was provided to me in Flint.
    Chairman Chaffetz. What did she say?
    Mr. Walling. And it was explained to me that that memo was 
under review, that the scope of the problem was being assessed. 
And my understanding at the time was this was limited to very 
particular cases because of what was there for lead surface 
lines and plumbing in individual houses.
    Chairman Chaffetz. Mr. Edwards, what is your take on that?
    Mr. Edwards. Well, the email is very clear from Ms. Hedman 
that she apologized for Mr. del Toral's memo, and Mr. Walling 
asked her if there was anything that should be of concern to 
Flint residents. And she said, frankly, no.
    Chairman Chaffetz. Ms. Hedman, why did you do that?
    Ms. Hedman. I did not apologize for the memo. I apologized 
for taking all day to get back to the mayor. And that is 
because I was out of the office for a medical procedure. And, 
in fact ----
    Chairman Chaffetz. Okay. So that was one day, so.
    Ms. Hedman. And, in fact, during the entire time period 
that Mr. Edwards imagines I was covering up data and silencing 
scientists, I was actually out of the office. I did not return 
until July 13th. During that time period, my deputy, Bob 
Kaplan, who Dr. Edwards describes as one of the good guys, was 
actually in charge of the office.
    Chairman Chaffetz. So, Mr. Edwards, this memo from Mr. del 
Toral is pretty comprehensive, is it not? Does it tackle the 
issue? Does it inform them as to the health of this water?
    Mr. Edwards. Yes, it points out that Flint is not being 
protected by Federal law, and that the public health is in 
danger.
    Chairman Chaffetz. When should that information have been 
released?
    Mr. Edwards. Had EPA just stayed silent and not apologized 
for the memo to Mr. Walling and told Mr. Walling that Mr. del 
Toral was accurate in what he said, I doubt Mr. Walling would 
have gone on TV to drink the water and tell Flint residents it 
was safe.
    Chairman Chaffetz. Is that true, Mr. Walling? Were you 
talked out of it? I mean, the memo comes out. You are getting 
inquiries from news organizations, the ACLU, and others saying, 
hey, what are you doing about this. And you go on television 
and say it is safe.
    Mr. Walling. I did trust the guidance that I was receiving, 
and that is what I regret in this looking back. But I 
deliberately reached out. I asked the White House Office of 
Intergovernmental Affairs for a point of contact in the EPA. 
This is while the City of Flint was still under emergency 
manager because I wanted to double check on what we were 
hearing from the State regulators.
    And when we are hearing essentially the same thing from the 
State and the Federal regulators, then I relied on that 
information, and that is what I ----
    Chairman Chaffetz. So what did the White House ask you to 
do? They asked you to communicate with who?
    Mr. Walling. No, I asked the White House for a point of 
contact.
    Chairman Chaffetz. Right. And the White House directed you 
to?
    Mr. Walling. Dr. Susan Hedman.
    Chairman Chaffetz. How long did it take before the EPA 
finally confirmed, came back and said, yeah, that del Toral 
report is accurate? They did not, did they? They never did. 
That is the point. If you left office, you were there for 
months, and months, and months, and they never did come back 
and actually confirm it. Mr. Edwards, is that correct?
    Mr. Edwards. That is correct.
    Chairman Chaffetz. Ms. Hedman, you were in office. You were 
here being paid by the taxpayers until late January of 2016. 
Why did it take you so long?
    Ms. Hedman. Mr. del Toral's memo actually dealt with lead 
in one residence and two neighboring residences. And the 
conclusion of the final version of his memo was that the 
problem had been caused by a physical disturbance of a lead 
surface line, and that it was particular to that household.
    Chairman Chaffetz. Mr. Edwards, this was not a report about 
one house, was it?
    Mr. Edwards. Mr. del Toral clearly pointed out that Flint 
was not being protected by Federal corrosion control laws 
period, and that the public health of an entire city was in 
danger.
    Chairman Chaffetz. This is where you are fundamentally and 
totally wrong, Ms. Hedman, and if you do not recognize that 
now. We are in mid-March 2016, and you still do not get it. You 
still do not get it, and neither does the EPA administrator. 
You screwed up, and you messed up people's lives.
    Ms. Hedman. Mr. Chairman, Mr. del Toral ----
    [Applause.]
    Chairman Chaffetz. No, no, no. The audience, please. Ms. 
Hedman?
    Ms. Hedman. Mr. del Toral was just one of several people at 
Region 5 who were concerned about the failure to implement 
corrosion control, and had been communicating to MDEQ at higher 
and higher levels of EPA management ----
    Chairman Chaffetz. This information was out there publicly. 
It had been released. You did not like it, did you? If somebody 
released that report, did he do the right thing or not do the 
right thing?
    Ms. Hedman. I do not believe he released the report.
    Chairman Chaffetz. Okay.
    Ms. Hedman. I think we need to be clear that there was ----
    Chairman Chaffetz. Was that the right thing for that report 
to go public?
    Ms. Hedman. There were three reasons why EPA could not 
release that report.
    Chairman Chaffetz. What are those?
    Ms. Hedman. The first is that it contained personally 
identifiable information, health information, and that kind of 
information is not something that we could release. And so, 
before a report is released, that is typically redacted by our 
Office of Regional Counsel.
    Chairman Chaffetz. Okay. So a black pen would take 10 
seconds or so? Yeah, okay. Keep going.
    Ms. Hedman. Right, and secondly, the material in the report 
included enforcement sensitive information. And we do not 
release that to the targets or to the general public. Again, 
that would have been a redaction issue. And then additionally, 
there was data in the report that we neither collected nor 
analyzed, and it needed to go through a kind of standard QAQC.
    I directed that that be done as soon as possible. It was my 
expectation that the report could be finalized and put in a 
form that could be publicly released before the reporter had to 
file his story. That was my expectation at the time.
    Chairman Chaffetz. And it took 7 months. Mr. Edwards, your 
reaction to her comments?
    Mr. Edwards. I am just in disbelief.
    Chairman Chaffetz. My time has well expired. I will now 
recognize the gentleman from Virginia, Mr. Connolly, for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman. You know, I was in 
local government, Mr. Edwards, for 14 years in Virginia. And my 
point of contact on the environment almost always was the 
Department of Environmental Quality. I thought you gave a very 
eloquent, passionate, and suitably outraged opening statement, 
but you focus on EPA almost exclusively in that statement.
    But when we actually get to how government works and what 
the mechanics of it are, a local government relates first to 
the Department of Environmental Quality, and the Environmental 
Protection Agency does not run water authorities around the 
country. It relies on the State DEQ.
    You know, I have heard a lot of talk about let us not 
finger point, but we do need to get to the bottom of this and 
how it works. And I do not think this EPA's finest moment, but 
I for one, coming from local government for 14 years, am not 
going to let the local DEQ off the hook because it sounds 
better for one political philosophy to try to shift this entire 
blame onto the Federal government. There is plenty of blame to 
go around, but I do not want to be an enabler to avoid getting 
to the bottom of what happened and who let it happen.
    Let me just say, Mr. Early, you said that it was your 
successor who declined the offer of Detroit Water, but my 
colleague, Mr. Clay, entered into the record a letter dated 
March 7th, 2014 addressed to Sue McCormick, Detroit Water and 
Sewer Department, signed by you. And you say in that letter, 
``We expect the Flint water treatment plan will be fully 
operational and capable of treating Flint water prior to the 
date of termination. In that case, there will be no need for 
Flint to continue purchasing water service to serve its 
residents and businesses after April 17th.''
    Now, Sue McCormick took that letter to be a rejection 
letter of the offer.
    Mr. Earley. Okay.
    Mr. Connolly. Did you intend it to be a rejection letter of 
the offer?
    Mr. Earley. Let me respond to that letter. There were very 
distinct letters back to the Detroit Water and Sewage 
Department. One was drafted by me before the issues of lead 
were discussed. That is the letter that you are making 
reference to. And then there was another drafted by the 
successor, Mr. Ambrose, that also said the same thing.
    My letter was in response to the fact that the project was 
already underway, that the city had invested millions of 
dollars into the new water system, and they wanted a long-term 
water agreement, which was not feasible.
    Mr. Connolly. Were you aware when you wrote this letter of 
concerns about the quality of water coming from the Flint 
River?
    Mr. Earley. In March of?
    Mr. Connolly. This is March 7th, 2014.
    Mr. Earley. That was before the switch. That was before the 
switch from the ----
    Mr. Connolly. But you were planning the switch.
    Mr. Earley. The switch was already planned well before I 
got there.
    Mr. Connolly. I understand.
    Mr. Earley. Yeah.
    Mr. Connolly. Were you aware when you wrote this letter 
that there were concerns about the quality of water coming from 
the Flint River?
    Mr. Earley. We had not switched yet. We had not ----
    Mr. Connolly. I am not asking that question. Were you 
aware? Had any one brought to your attention ----
    Mr. Earley. No.
    Mr. Connolly.--that there were concerns about the Flint 
River?
    Mr. Earley. No.
    Mr. Connolly. Did you have any reason to believe there 
could be water quality concerns taking water from the Flint 
River?
    Mr. Earley. I did not, sir, because the DEQ had certified 
the water. The State had given the permits, all of the things 
were necessary to move forward with the project.
    Mr. Connolly. Okay. Your testimony today and other things 
you have written are pretty harsh about the Michigan Department 
of Environmental Quality, correct?
    Mr. Earley. Yes.
    Mr. Connolly. You say it missed its opportunity to identify 
serious pipe corrosion problems. You say that it multiple 
emphatic warnings from the EPA. Is that correct?
    Mr. Earley. Yes.
    Mr. Connolly. Is it your testimony that MDEQ ignored 
warnings from the EPA?
    Mr. Earley. I cannot speak to why they reacted the way that 
they did.
    Mr. Connolly. I did not ask that question. Factually are 
you saying by saying that they had multiple emphatic warnings 
from the EPA, the clear implication of that statement, and they 
ignored them. Is that your testimony?
    Mr. Earley. No.
    Mr. Connolly. Ms. Hedman, that statement that there were 
multiple emphatic warnings from the EPA, what is Mr. Early 
referring to from your point of view?
    Ms. Hedman. What date is the letter again, please?
    Mr. Connolly. He says in his testimony that the MDEQ 
received multiple emphatic warnings from the EPA warning.
    Ms. Hedman. I thought you were referring to the letter. 
Yes, we ----
    Mr. Connolly. No, I am not referring to the letter. I am 
referring to the Mr. Earley's testimony.
    Ms. Hedman. So in February of 2015, EPA inquired about the 
type of corrosion control that was being implemented in Flint. 
And my staff was told that Flint was fully optimized for 
corrosion control. It was not until April 24th that the MDEQ 
admitted to my staff for the first time that Flint was not 
practicing corrosion control.
    And at that time, from that day forward, at higher and 
higher levels at EPA, we repeatedly emphatically and urgently 
told MDEQ that it was important to implement corrosion control 
as soon as possible.
    Mr. Connolly. All right, my time is up. Mr. Chairman, I 
want to thank you for the hearing, and I want to thank you 
again for Thursday's planned hearing. Irrespective of our 
politics or anything else, this is a catastrophic failure with 
our citizens. And if government exists for any purpose, it is 
to protect our citizens in health and safety, and this is a 
catastrophic failure in that mission.
    Chairman Chaffetz. Thank you. The gentleman yields back. I 
will recognize the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. I thank the chairman. I would yield my time to 
the gentleman from Michigan.
    Chairman Chaffetz. Mr. Walberg, sir.
    Mr. Walberg. I thank the gentleman from Ohio. Let us go a 
little bit different track. I would like to come back to Ms. 
Hedman again. But initially or first, EPA finally actively 
intervened in Flint in late January 2016. Mr. Edwards or Dr. 
Edwards, in the last few months what steps have been taken to 
make Flint's water lead free? I saw you there Saturday. I saw 
you talking with residents, talking about filters, and all of 
the rest. What steps have been taken?
    Mr. Edwards. They have switched back to Detroit Water. EPA 
has implemented very good corrosion control effective December. 
We believe the lead levels are dropping dramatically as the 
pipe coating is reestablished. And we are currently sampling 
with Flint residents last week to see house by house how much 
lower lead levels are now. And it is our hypothesis that lead 
is about 4 times better now than it was back during the height 
of the lead poisoning incidents in Flint neighborhoods.
    Mr. Walberg. How long do you think it will take for, 
reasonably speaking, for Flint's water to be safe?
    Mr. Edwards. In order to meet existing Federal standards, 
which is not a high bar as I have already said, you have to do 
a federally approved lead and copper sampling event that Flint 
has never done in its history because they have never sampled 
the right homes. And they have been using sampling protocols 
that missed lead in water risk ----
    Mr. Walberg. Do you have records even of those homes that 
they have sampled?
    Mr. Edwards. Yes, we do, yeah. But they did not have lead 
pipes as is specified like other cities around the United 
States. Philadelphia, it is now acknowledged they did not 
sample enough homes with lead pipes according to the 
requirements of the law. This is something that EPA has been 
allowing since 2006.
    Mr. Walberg. Do you believe it is necessary and reasonable 
for Flint to replace all of the lead pipes?
    Mr. Edwards. You know, obviously that is desirable. I think 
everyone wants that to happen. No one wants it more than me. 
But I think we have to consider seriously what is the best 
place to invest in Flint's future to help Flint get back on 
their feet. They have needs in terms of the water mains.
    Flint has more water main breaks per mile than almost any 
other city in the United States. That is one of the reasons 
their water bills are so high. So there is many infrastructure 
needs that have to be addressed, and that is why I am in favor, 
although I do not think it does enough, I am in favor of this 
Flint bill to get money to Flint residents for their 
infrastructure.
    Mr. Walberg. We heard, I believe, Saturday 40 percent water 
being wasted due to breaks in the lines, leaking out. That is 
amazing. And then you are talking about people having to pay 
those water bills when they are not even getting the water, let 
alone the water being safe to drink.
    Let me go back to Ms. Hedman. In your testimony, you stated 
that, ``I resigned in part because of the false allegations 
about me that were published in early January.'' You 
specifically cite a January 12th Detroit News article titled, 
``EPA Stayed Silent on Flint's Tainted Water,'' in which Marc 
Edwards is extensively quoted saying that the people who knew 
about the lack of corrosion controls should have acted 
immediately.
    Let me ask you. Is it a false allegation to say that people 
who knew about the contaminated water should have acted?
    Ms. Hedman. No, and we did. We did. As soon as I learned 
about this, I offered lead experts to the mayor, and we reached 
out again to MDEQ. And within 3 weeks had reached agreement 
that MDEQ would order to Flint to implement corrosion control 
as soon as possible. And in the interim, we issued a statement 
----
    Mr. Walberg. I think Mr. del Toral would not agree with 
that. And, Mr. Edwards, what is your position?
    Mr. Edwards. She did nothing to protect Flint's children. 
Nothing.
    Mr. Walberg. The article also quoted Michigan Senate 
Minority Leader, Jim Ananich, of Flint who says, ``Anyone who 
read his memo and failed to act should be held accountable to 
the fullest extent of the law.'' That is the minority leader of 
the Michigan legislature, Mr. Ananich. Is he wrong, Ms. Hedman?
    Ms. Hedman. Mr. del Toral's memo contained the same 
recommendations that I had been receiving from others in EPA 
who had followed through starting on June 10th before that del 
Toral ----
    Mr. Walberg. Yes, he was disciplined for his memo.
    Ms. Hedman. No, he was not.
    Mr. Walberg. He was disciplined for standing up as a 
whistleblower.
    Ms. Hedman. He was not.
    Mr. Walberg. He was absolutely.
    Ms. Hedman. He was not. He was not.
    Mr. Walberg. Mr. Chairman, with that disagreement, I yield 
back.
    Chairman Chaffetz. If the gentleman would yield first, did 
you make him go through ethics training?
    Ms. Hedman. No.
    Chairman Chaffetz. No.
    Ms. Hedman. No.
    Chairman Chaffetz. You really believe that. Did you limit 
his travel?
    Ms. Hedman. No.
    Chairman Chaffetz. There was no discipline whatsoever.
    Ms. Hedman. None whatsoever.
    Chairman Chaffetz. Is he a hero or a villain in this?
    Ms. Hedman. He is a hero, and to be clear I recommended him 
for EPA's highest award.
    Chairman Chaffetz. When?
    Ms. Hedman. In about September, and in his typical modest 
way, he declined to be nominated because his work was not 
finished.
    Chairman Chaffetz. You need to go back and read the emails 
and the memos that were provided to us by the EPA because that 
is not what was happening within your organization. And you 
were in charge of that organization.
    Ms. Hedman. So I can tell you that my deputy, who was in 
charge during the time period that you are concerned about, got 
wind of that, and he went down to the Water Division and put an 
end to it. And when I called him, he told me that I did not 
even have to tell him. He took care of it.
    Chairman Chaffetz. Did anybody at the EPA do anything 
wrong?
    Ms. Hedman. Are you asking me the question if I could do 
this all over again, is there something I would do ----
    Chairman Chaffetz. No. I am asking you, you were in charge. 
Did anybody at the EPA do anything wrong?
    Ms. Hedman. I do not think anyone at EPA did anything 
wrong, but I do believe we could have done more.
    Chairman Chaffetz. Wow.
    Mr. Cummings. Mr. Chairman?
    Chairman Chaffetz. Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I want to clear. Ms. Hedman, 
you are under oath. Do you understand that?
    Ms. Hedman. Yes.
    Mr. Cummings. And I just want to make sure you are clear as 
to what you are saying because if you are not clear, I do not 
want you to be subjected to some kind of criminal inquiry, so I 
just want to ask you this. Did you retaliate against Mr. del 
Toral in any way?
    Ms. Hedman. Absolutely not.
    Mr. Cummings. And so, you said something just a moment ago. 
You said your deputy did something. What was that? You said he 
cleared it up. What did he clear up?
    Ms. Hedman. So after I sent an email to the mayor, the 
mayor requested that we reach out to the reporter again. And I 
replied to the mayor by saying at this point I am not inclined 
to have my staff have contact with the reporter. They need to 
finish the report because I did believe they would be able to 
get a final report out.
    I understand through a series of emails that came to me 
later, I would say around July 7th or 8th, that that was 
forwarded and interpreted as some sort of direction that nobody 
was supposed to talk to reporters. And when I saw that email, I 
called my deputy because I was concerned about the flavor of 
that interpretation. And he said, no problem, I have already 
handled it.
    Mr. Cummings. All right. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. We will now go to 
the gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. Mr. Earley, I want 
to revisit a question with you on the decision on using the 
Flint River. You submitted an opening statement in writing. Am 
I correct in that?
    Mr. Earley. That is correct, sir.
    Mr. Cartwright. And I read it, and you said, ``It was not 
my decision to use the Flint River, nor was it a two-pronged 
decision.'' You said, ``The concept of using the Flint River as 
an interim water source was inherent in the city council's KWA 
vote and Kurtz's March 2013 order.'' Have I read that 
correctly?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. So you said, ``The decision to use the 
Flint River was inherent in the city's council's vote.'' That's 
as opposed to explicit. It was not explicit, correct?
    Mr. Earley. That is correct, sir.
    Mr. Cartwright. All right. But you know what? That is not 
what Mayor Walling testified to. In fact, Mayor Walling also 
submitted a written statement, and he said on page 4 of 9, 
``Contrary to the facts, Governor Snyder's office and former 
emergency manager, Darnell Earley, have stated and repeated 
blatantly false claims that I and the Flint City Council made 
the switch to the Flint River.'' Did you read that? Did you 
have access to his opening statement?
    Mr. Earley. I did not, sir.
    Mr. Cartwright. Okay. Well, he said that. And, Mr. Walling, 
a simple ``yes'' or ``no,'' do you stand by that remark?
    Mr. Walling. Yes.
    Mr. Cartwright. That is a yes for the record.
    Mr. Walling. Yes.
    Mr. Cartwright. All right. So here is the point, Mr. 
Earley. You were the one with the power at the time. I would 
like to clarify your powers as emergency manager at the time. I 
want to read to you the passage from the 2012 law that created 
the position of emergency manager. And it says this: ``The 
emergency manager shall have broad powers and receivership to 
rectify the financial emergency and to assure the fiscal 
accountability of the local government and the local 
government's capacity to provide or cause to be provided 
necessary government services essential to the public health, 
safety, and welfare.'' Have I read that correctly?
    Mr. Earley. That is correct, sir.
    Mr. Cartwright. Mr. Earley, do you agree that as emergency 
manager you had broad powers?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. And once you issued an opinion, it was law. 
The emergency manager law says, ``An order issued under this 
section is binding on the local elected and appointed officials 
and employees, agents, and contractors.'' Have I read that 
correctly?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. And you used those broad powers to cut 
about $18 million from the budget by moving away from Detroit 
Water to the Flint River, and this was the agenda from Governor 
Snyder's office to save money. That was the emergency referred 
to in ``emergency manager.'' It was not an emergency in the 
environment, or in public water, or drinking supply. It was an 
emergency about money. It was a money emergency manager that 
you were.
    In your testimony you said a proposal to stay on Detroit 
Water was ``an unsustainable financial fantasy.'' Have I read 
that correctly?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. Did you at any time use your broad powers 
to request additional State funds to help Flint purchase safe 
Detroit water during the transition to KWA?
    Mr. Earley. No, sir.
    Mr. Cartwright. But that is exactly what they did after 
tens of thousands of people were poisoned by lead in the 
drinking water of Flint, correct?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. Mr. Earley, it took a public health crisis 
of these proportions with thousands of victims for Flint 
finally to receive the State funds it needed to protect its 
citizens, did it not?
    Mr. Earley. Yes, sir.
    Mr. Cartwright. So I wonder what all this says about the 
governor of Michigan. The emergency manager law says this, and 
I quote, ``The emergency manager shall serve at the pleasure of 
the governor.'' You were doing the governor's bidding. In fact, 
I read the Detroit News this morning, and your pastor, Reverend 
Marlon Jennings. Is that your pastor?
    Mr. Earley. He is a pastor that I do know from the City of 
Flint, yes.
    Mr. Cartwright. He was talking about you in today's paper. 
``It is unfortunate that he was caught up in this quagmire of 
responsibility to the governor in his position, and at the same 
time trying to serve the people of Flint, Jennings said.'' ``It 
turned out that the two were diametrically opposed. His job as 
emergency manager is to carry out the wishes and execute the 
plan and program of the governor.'' Did you see that in the 
paper this morning?
    Mr. Earley. I have not seen that yet, sir.
    Mr. Cartwright. You do not have reason to disagree with the 
pastor, do you?
    Mr. Earley. Well, I would say that the role as defined 
there is pretty narrow. It is a much broader role. I think the 
real goal is to return the city or the school district back to 
financial solvency.
    Mr. Cartwright. After all of this, the governor appointed 
you to be emergency manager of the Detroit Public Schools after 
you got done with the Flint, and your salary for that job was 
$41,000 more than what you made in Flint. Am I correct in that?
    Mr. Earley. Yes.
    Mr. Cartwright. It looks like the governor was pleased with 
your performance in Flint.
    [Laughter.]
    Mr. Cartwright. I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentleman from North Carolina, Mr. Meadows, for 5 
minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Ms. Hedman, let me 
come to you because the chairman and the ranking member both 
questioned, I guess, your last round of testimony. And so, is 
it your sworn testimony that you did not directly or indirectly 
retaliate against Mr. del Toral for him being a whistleblower? 
Is that your sworn testimony?
    Ms. Hedman. My sworn testimony is that I certainly did not, 
and I have no knowledge of anyone in EPA who did so.
    Mr. Meadows. And you have looked very closely at that, 
because we have been led to believe very differently, and that 
is why I am giving you one last chance to perhaps correct your 
testimony here today because you are under sworn testimony, and 
we are very concerned that we get the whole truth and nothing 
but the truth. So you have no knowledge indirectly or directly 
of any retaliation that came against him.
    Ms. Hedman. No.
    Mr. Meadows. All right. Mr. Edwards, you worked very 
closely with Mr. del Toral. How would you characterize that 
statement in light of your close working with him?
    Mr. Edwards. I do not think Ms. Hedman understands the 
climate she created at Region 5 EPA. Even before Mr. del Toral 
wrote that memo, he told me that he had to protect Flint's 
children while minimizing the likelihood he would be retaliated 
against.
    Mr. Meadows. Had he shared with you that he has been 
retaliated against? Is that your belief?
    Mr. Edwards. Well, I mean, obviously he was told not to 
talk to anyone to Flint or about Flint. A deal of some sort was 
made between EPA and MDEQ where MDEQ felt emboldened to say 
that ``they had handled Mr. del Toral.'' That Flint residents 
would not be hearing from Mr. del Toral again.
    And so, that is when we got involved. I mean, I invested 
$200,000 of my own money. A team of 25 volunteers from Virginia 
Tech had to go in and demonstrate that Flint residents were not 
crazy, and that lead in water was high.
    Mr. Meadows. So is it your testimony that somehow Mr. del 
Toral was handled by the EPA and the Department of Water 
Quality Michigan to silence him in his defense of the children 
of Flint, Michigan?
    Mr. Edwards. Absolutely.
    Mr. Meadows. Ms. Hedman, how do you respond to that?
    Ms. Hedman. I know of absolutely no evidence to 
substantiate that claim.
    Mr. Meadows. Well, let me go a little bit further because 
some of what you know and what you do not know is, I guess, the 
problem because your testimony here today says that the EPA had 
no fault. That was in your opening testimony. There is no 
fault.
    Ms. Hedman. No.
    Mr. Meadows. And so, you stand by, I mean, in light of 
everything that is coming out, that there is no fault for the 
EPA on behalf of the EPA.
    Ms. Hedman. That is not what I said in my testimony or in 
my answers to the questions.
    Mr. Meadows. All right. So the EPA is at fault.
    Ms. Hedman. I said that I thought we could have done more.
    Mr. Meadows. Listen, that is political speak. Are you at 
fault or not? Yes or no.
    Ms. Hedman. In what respect?
    Mr. Meadows. In any respect, I guess, Ms. Hedman. I mean, 
here is the problem is we have got children that have been 
harmed, and yet we are sitting here equivocating over words 
that may or may not establish blame. And I am concerned that 
what we are doing is we are just wiping our hands of it and 
saying that I had nothing to do with it. Is that your 
testimony?
    Ms. Hedman. It is not.
    Mr. Meadows. All right. So EPA partially at fault?
    Ms. Hedman. I believe we could have done more.
    Mr. Meadows. All right. So let me go on a little bit 
further. Mr. Edwards, in our last time when you were here 
before this exact same committee, I asked you about a FOIA 
request from the EPA because you had gotten lots of information 
from Michigan and zero from the EPA. Did you ever get your FOIA 
request responded to?
    Mr. Edwards. No. There are still outstanding appeals from 9 
years ago. The request that we had for Flint emails came in all 
redacted, so I hope ----
    Mr. Meadows. So when did those come in? When did those come 
in? The day after the hearing?
    Mr. Edwards. Oh, I did get one FOIA the day after the 
hearing, yeah. That was ----
    Mr. Meadows. Is it not amazing how it takes a congressional 
hearing to have the Federal law adhered to. So and it is 
redacted?
    Mr. Edwards. The emails in relation to Flint ----
    Mr. Meadows. More than personal information. Obviously we 
want to redact personal information.
    Mr. Edwards. The emails that we requested about the Flint 
water crisis from EPA were almost 90 percent redacted in terms 
of deliberative, attorney-client privilege, or unresponsive. 
Everything virtually was redacted from those emails.
    Mr. Meadows. Ms. Hedman, I mean, so redacting all of that. 
Normally when we redact it is for national security concerns. 
Do you think the EPA has a national security concern here?
    Ms. Hedman. I am not familiar at all with the emails.
    Mr. Meadows. I will yield back.
    Chairman Chaffetz. Before the gentleman yields back ----
    Mr. Cummings. No, I was going to take a turn.
    Chairman Chaffetz. I will now recognize the ranking member 
for 5 minutes.
    Mr. Cummings. Thank you. Thank you very much, Mr. Chairman. 
I want to go back. I want to follow up on some of the things 
that Mr. Meadows said. The chairman introduced, Ms. Hedman, a 
document. It is an email, and it, first of all, Email Exhibit 
6. Is that right? Anyway, Mr. del Toral, he is writing a letter 
to somebody named Rita Bair. Do you know Rita Bair?
    Ms. Hedman. She works in the Region 5 Water Division.
    Mr. Cummings. And so, apparently he had been denied an 
opportunity to go to Milwaukee for some kind of conference. And 
this is what kind of struck me, and it kind of bears out what 
the chairman and Mr. Meadows has been getting to. It says, ``I 
told you about this project during the check-ins as well as in 
my performance review, so I'm not sure what you intend by your 
message.''
    This is the piece that gets me. ``It almost sounds like I'm 
to be stuck in a corner holding up a potted plant because of 
Flint. One misstep in 27-plus years here, and people lose their 
minds.'' Well, why do you think he said that?
    Ms. Hedman. First of all, I ----
    Mr. Cummings. It sounds like he feels like he's being 
retaliated against.
    Ms. Hedman. First of all, I had never heard of that email 
until this morning, and I am appalled that anything might have 
been done to make him feel that way.
    Mr. Cummings. Yeah. Well, I am kind of glad you quit. I am 
glad you resigned. Let me tell you why, and I have told the 
chairman this. There is something going on in that Region 5 
that we need to deal with. And I do not know exactly what it 
is, but there are problems. And I am determined to make sure 
that we do that.
    You know, Mr. Earley, I got to tell you, I almost vomited 
when I heard you say something a moment ago. You said that even 
after you found out that newly manufactured parts were starting 
to rust out by using the Flint water, that you did not see that 
as a problem. I mean, wait a minute now. I am confused.
    If they are going to rust out, newly manufactured parts, 
you mean that does not send you a warning that maybe human 
beings might be being harmed? Come on now.
    Mr. Earley. Well, again, I was relying on the information 
that I was getting from the MDEQ and from the staff. I mean --
--
    Mr. Cummings. But if somebody ----
    Mr. Earley.--I am not a water treatment expert.
    Mr. Cummings. You do not have to be a water treatment 
expert. A five-year-old could figure that out. But anyway, let 
me go on to Mr. Walling.
    As you know, Governor Snyder has agreed to testify, Mr. 
Walling, before us on Thursday, and I am looking forward to 
that. And I really do thank the chairman for having him. It is 
clear that the governor had a very important role to play in 
the Flint water crisis. The governor appointed emergency 
managers who ran Flint during the crisis, and the governor made 
the belated decision to help pay for Flint to reconnect to the 
Detroit Water System in October of last year.
    Mayor Walling, I want to get your perspective on how the 
governor handled the Flint water crisis because I want to make 
sure we address everybody who may have been responsible for 
this fiasco. Mayor Walling, when did you first start having 
serious concerns about the safety of the water coming from the 
Flint River?
    Mr. Walling. I had growing concerns as the complaints were 
coming in from the citizens.
    Mr. Cummings. Give me a date. Give me a date.
    Mr. Walling. Throughout the summer of 2014.
    Mr. Cummings. All right. And when did you first reach out 
to the governor for help?
    Mr. Walling. I reached out to the governor in January of 
2015.
    Mr. Cummings. All right. And in your January 18th letter 
you wrote, and I quote, ``I am writing to convey serious 
concerns about water quality and to request your support for my 
proposed Flint water improvement plan.'' Mayor, why did you 
write the letter to the governor, and what were you hoping to 
achieve?
    Mr. Walling. I was not seeing enough being done by the 
emergency managers in Flint to address this problem. I believe 
this needed to go directly to the governor. I, of course, did 
not know what his staff were telling him or not. But he needed 
to hear directly from me as the mayor of the city what needed 
to be done to protect and serve the citizens.
    Mr. Cummings. And so, let me read an internal email from 
one of the governor's senior staff commenting on your request. 
He wrote, and I quote, ``Mayor Walling is seeking to drag the 
governor into the conflict with both hands.'' Mayor Walling, 
what is your response to that, and why do you think the 
governor's folks wrote that?
    Mr. Walling. I have read similar emails and what has been 
disclosed, and I was highly disappointed that the chief elected 
official for the State of Michigan would view my concerns as 
the chief elected official for the City of Flint in that kind 
of manner, and that staff around him would be giving him that 
counsel.
    Here is a community that is already under a financial 
manager that is now dealing with a TTHM crisis and other issues 
that are unresolved. And I come to the governor with a 
professional letter, comprehensive, and asking for him to 
respond to help invest, to come to the City of Flint and meet 
with residents, which it took him a year to do.
    Mr. Cummings. I got it. I got it. I get the gist of it. I 
do not have but so much time. You sent another letter to 
Governor Snyder about 8 months later on September 14th, 2015. 
Is that correct?
    Mr. Walling. Yes.
    Mr. Cummings. You wrote, and I quote, ``The community has 
heightened concern about lead leeching into the water from old 
surface lines and home plumbing, and also needs to be 
addressed.'' So 8 months after your first letter, you were 
still asking for help to improve the safety of the water in 
your community, and still nothing was happening. Mayor Walling, 
how did you feel when you found out that the State was not 
treating the Flint River water with corrosion control agents 
for nearly a year and a half? How did you feel?
    Mr. Walling. I was just stunned because it had been said to 
me, I know to other staff, to our community in public forums 
that it was meeting the standards, that it was comparable with 
Detroit, that it was safe. We had heard that time and time and 
time again. And this was from the Michigan Department of 
Environmental Quality that we looked to for that guidance.
    Mr. Cummings. Mr. Chairman, I just need one more minute. 
Let me read you another email that Governor Snyder's chief of 
staff, Dennis Muchmore. And by the way, do you know Dennis 
Muchmore?
    Mr. Walling. I do.
    Mr. Cummings. He will not talk to us, okay? He was the 
chief of staff, but he refused to talk to us. So Mr. Muchmore 
sent to the governor September 2015, he wrote, and I quote, 
listen to this one. ``Frankly I think we both know that Walling 
went out on a CYA effort.'' You know that means, right?
    Mr. Walling. Yes, I do.
    Mr. Cummings. Yeah, cover it, ``due to the election. But, 
of course, can't say so.'' What is your reaction to that email?
    Mr. Walling. Well, it is sickening because this is when we 
are getting the research results from Dr. Edwards, and we are 
looking for ways to respond despite getting resistance. And to 
suggest that that was a political motive on my part when I am 
doing everything I can despite the budgets that we are required 
to follow, the contracts that are in place.
    We are looking for answers. We are looking for help. And it 
appears that the governor's office did that a cross the board 
with our local elected officials, that we were all discounted 
for some reason.
    Mr. Cummings. All right. I got to quit now, but I got to 
tell you, as I am sitting here listening to all of this, it is 
sickening, all of it. I mean, there is no reason in 2016 that 
people should be, when they turn on their faucet should be 
getting poisoned water. And you know what? And somebody said it 
a little earlier. This is like the pointing of the finger. You 
did it. You did it. You did it.
    You know, we are so much better than this, and we have to 
be. This cannot be the norm. And I do not know why that is, but 
I am telling you I think there are a lot of failures, and I 
hope that we get to the bottom of it.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. Mr. Edwards, let me 
begin with you. Last month when you were here, I asked you some 
very pointed questions about the EPA's responsibility. And, 
quite frankly, I am shocked, stunned by the audacity of Ms. 
Hedman's testimony today.
    Let us begin, if we can, with a brief clip from the hearing 
last month.
    [Video shown.]
    Mr. Hice. All right. Those were powerful words. After 
seeing this clip, do you still stand by those statements?
    Mr. Edwards. Yes, I do, and I will point out that silence 
on the part of the EPA is interpreted as acquiescence.
    Mr. Hice. All right. Well, let us go further then because 
there has been more information brought to the table today. Is 
there anything you would like to add to your statement that we 
just watched based on testimonies we have heard today?
    Mr. Edwards. Just that Mr. del Toral's ``misstep,'' as 
quoted in his email, was his proudest moment and one of EPA's 
proudest moments, too.
    Mr. Hice. A few moments ago, Ms. Hedman stated that she 
responded immediately, and I noticed while she was saying that 
that you were shaking your head. In fact, when given the 
opportunity, you responded authoritatively that she did 
nothing. You said it a couple of times, ``she did nothing.''
    First of all, do you believe that Ms. Hedman has provided 
some false testimony today when you are saying one thing and 
she is saying another?
    Mr. Edwards. The bottom line is she did nothing immediately 
to get Flint's children out of harm's way. And she has that 
obligation. She is the top policeman in the region. And by 
remaining silent about what was happening, she was acquiescent. 
She was allowing Mr. Walling to believe that Mr. del Toral was 
a rogue employee that did not speak for the Agency. Mr. Walling 
was quoted in the paper on that. At no point did Ms. Hedman 
tell Mr. Walling that Mr. del Toral had done his job and that 
memo was accurate.
    Mr. Hice. So it very questionable to you when she says that 
she acted immediately whether or not that really took place. 
The ranking member, Mr. Cummings, a few moments ago stated 
that, in essence, he smells a rat in Region 5. Was the 
situation at Flint the first time that you heard of problems in 
the way that Region 5 was being handled under the leadership of 
Ms. Hedman?
    Mr. Edwards. The first time I heard of problems was when 
Mr. del Toral was thinking about how to reveal the problem. Mr. 
del Toral was afraid that he would be retaliated against, but 
he nonetheless had the moral obligation to protect Flint's 
children. And so, in that type of environment, what is an 
employee to do?
    He took the best course of action that he could to get this 
memo out both in EPA and into the hands of Ms. Walters and 
myself. A press story was written about this memo, and even 
then Ms. Hedman covered this up.
    Mr. Hice. So you firmly believe there was a cover up.
    Mr. Edwards. Nothing was done to protect Flint's children.
    Mr. Hice. Okay. Let me ask you ----
    Mr. Edwards. Until we got involved, until we started 
sampling, and I invested $200,000, and this team of volunteers 
from Virginia Tech donated four-person years of effort, they 
never would have installed corrosion control.
    Mr. Hice. So it would still be taking place had you not --
--
    Mr. Edwards. I believe so. I believe there is no record 
that MDEQ would have been forced to meet Federal law in Flint.
    Mr. Hice. Okay. Well, Mr. Chairman, I see my time has 
expired. Thank you.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from Illinois, Ms. Kelly, for 5 
minutes.
    Ms. Kelly. Thank you, Mr. Chair. I want to thank the 
chairman and the ranking member for working together to bring 
those responsible for this crisis here. And I want to thank Mr. 
Edwards for coming back before this committee again.
    The crisis in Flint is an inexcusable failure at various 
levels of government, but we also have an obligation to learn 
how we can prevent further tragedy. Flint's water crisis is 
causing local municipalities and cities to take a closer look 
at their own water supply.
    Every day I hear from constituents who want to know if 
their town's water is safe. I have pregnant mothers that have 
called me from Fort Heights, and fathers in Pembroke Township 
who want to know that their local governments are not 
mismanaging their water supply given the grave public health 
and safety dangers that can arise.
    Mr. Edwards, what would you recommend to municipalities 
using lead pipes or pipes with lead soldering that are now 
concerned about their own water supply?
    Mr. Edwards. Well, I actually applaud an action EPA took 2 
weeks ago to finally close some of the loopholes in sampling 
that allow lead in water to be low when you collect samples and 
high when people drink the water. These practices are occurring 
all over the country, and we have been complaining about them, 
shouting about them for 10 years. And it took something like 
Flint before EPA Office of Drinking Water and Groundwater 
released a memo that will better meet the intent of the Lead 
and Copper Rule.
    Ms. Kelly. Anything else you would recommend along those 
line?
    Mr. Edwards. All I have ever wanted was the original intent 
of the Lead and Copper Rule to be met.
    Ms. Kelly. Okay. And what about State governments? What 
more can they do?
    Mr. Edwards. Well, you know, the State governments have 
been operating in this climate that EPA created in which 
cheating was condoned. And MDEQ exploited every one of those 
loopholes to hide the high lead in Flint's water, even to the 
point where they would not have had to install corrosion 
control. That is a fact.
    It is absolutely clear in the record they were passing the 
Lead and Copper Rule using these loopholes, and they were using 
that as an excuse to not install corrosion control. And, in 
fact, there is an email where Mr. del Toral asked MDEQ to stop 
pre-flushing, pre-cleaning the pipes the night before sampling. 
This is something we have been screaming about to stop because 
it caused lead poisoning of children in D.C. in 2006 to 2008. 
And MDEQ said, well, it is not the law yet, and we are not 
going to do that until EPA makes it the law. And so, that was 
very clear in the emails that they were going to use every 
single loophole, every trick that EPA allowed to hide this lead 
in water problem.
    Ms. Kelly. Then finally, what we can do as a Congress or as 
a committee to ensure that governments at levels are doing all 
they can to perform basic functioning and providing every 
American with safe drinking water?
    Mr. Edwards. Well, I think the most important thing is to 
create a climate in which the thousands and thousands of great 
employees at EPA all across the country and at MDEQs all across 
the country can do their job, where employees like Mr. del 
Toral are allowed to their job without fear of being retaliated 
against either directly or indirectly.
    Ms. Kelly. Okay, thank you. Ms. Hedman, you were the Region 
5 administrator for the EPA, and prior to that worked as an 
environmental attorney in the Office of the Illinois Attorney 
General. Do you agree with Mr. Edwards' assessments?
    Ms. Hedman. I agree generally that there are improvements 
to be made in sampling protocols and in the Lead and Copper 
Rule. And although I am no longer at EPA, I am very pleased to 
see that EPA is moving in that direction.
    Ms. Kelly. Okay. One thing I would like to see that we 
continue to have hearings. Like we do not have these hearings 
and just stop. It may be 6 months from now or a year from now 
that we check back on Flint so the people of Flint still know 
that we are concerned. Of course they know they have 
Representative Lawrence and Kildee and my colleagues on the 
other side from Michigan. But I want you to know that we are 
all concerned.
    And with that, I yield the remainder of my time to Ranking 
Member Cummings.
    Mr. Cummings. I want to just say to the gentlelady that I 
agree with you that we have to continuously follow up on this 
situation because the thing that I do not want, every time I 
think about Flint, I think about Katrina, to be frank with you. 
And so, after all the cameras are gone and the attention moves 
away, the question is where are the people left? Where are 
these children left? And I know we talk a lot about children, 
but I am also concerned about the adults because they, too, are 
drinking this water.
    So I am sure the chairman will work with us. I am looking 
forward that just so that we can stay on top of it. Thank you, 
Mr. Chairman.
    Chairman Chaffetz. Absolutely. I concur, and I appreciate 
the gentlewoman's questions, and she has my commitment that we 
will continue to follow up.
    I will now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Sure. I just have a few questions for Ms. 
Hedman. Sometimes it is good to flush out your background, and 
I see you graduated from the University of Wisconsin Law School 
with me, so congratulations.
    I want to find out a little bit how you got the job. You 
know, you used to work for Ferlice and Madigan down there in 
Illinois, and you switched over to this job. Can I ask why you 
applied for the job? Who let you know the job was available, 
that sort of thing?
    Ms. Hedman. I did not apply for the job. In fact, I 
actually wrote a number of recommendations for other people to 
take the job. And when I was first approached, my answer was 
no. I, however, was persuaded to take the job. I will tell you 
that one of the reasons I was hesitant is I recognized the 
huge, huge problems that EPA has to deal with in a period of 
declining budgets, particularly infrastructure budgets. And it 
seemed a huge task to take on, but I did.
    Mr. Grothman. Okay. Who approached you about the job? You 
said you did not want the job, but people approached and kind 
of begged you to take it.
    Ms. Hedman. I received a call from the EPA administrator.
    Mr. Grothman. Secretary Jackson?
    Ms. Hedman. Yes.
    Mr. Grothman. Okay.
    Ms. Hedman. Administrator Jackson.
    Mr. Grothman. Okay. Mr. Edwards, are you kind of familiar 
with Ms. Hedman's background?
    Chairman Chaffetz. Sorry. Mr. Edwards, we can come back to 
you. He has his own personal water issue in a moment, so he 
will be right back.
    [Laughter.]
    Mr. Grothman. Okay.
    Chairman Chaffetz. We will come back to you if you would 
like. Oh, there he comes. Here he comes. Sorry. He is back. We 
will not dock you the time. Go ahead, Mr. Grothman.
    Mr. Grothman. Well, I will do one more question. Why 
specifically or what was your background that caused Secretary 
Jackson to feel you would be qualified for this job?
    Ms. Hedman. I understand I had been recommended by a number 
of people to her. I have, as you pointed out, a law degree. I 
also have a Ph.D. in environmental studies, and I have spent my 
entire life essentially working to protect public health and 
the environment often representing citizen groups, like the 
good people of Flint.
    Mr. Grothman. Okay. Mr. Edwards, we just asked a question 
of Ms. Hedman. Are you familiar with her background, or could 
you comment in general about what you feel are her 
qualifications for running District 5?
    Mr. Edwards. No, I do not know anything about her 
background.
    Mr. Grothman. So in other words, okay, back to Ms. Hedman. 
So you were hired for EPA at the suggestion of Ms. Jackson. 
Other people may have recommended you. Could you give me 
examples of people that you said brought it up that would cause 
you to be a good person at District 5? You said other people 
had recommended you. Do you know who those people were?
    Ms. Hedman. I believe that some people in environmental 
groups actually recommended me for the job.
    Mr. Grothman. Okay. I will yield. Would you like me to 
yield my remaining time to you?
    Chairman Chaffetz. We will come back next I think.
    Mr. Grothman. Okay. I will yield the remainder of my time.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentlewoman from Michigan, Ms. Lawrence, for 5 minutes.
    Ms. Lawrence. I want to thank the ranking member and the 
chairman for calling this hearing. You know, I am a child of 
Michigan, and have dedicated 25 years of my life to public 
service. And this issue has created anxiety, sadness, 
frustration, and right now I have knots in my stomach because 
as my colleagues have said, we are pointing the fingers at each 
other where this is a point where each of you should stand up 
and accept responsibility.
    I want to ask a few questions. Mr. Edwards, because we need 
to fix this problem. And I share with you your frustration and 
your passion about EPA, and we collectively, because everyone 
is, you know, talking about is this a partisan issue. We work 
together. First of all, we are here today because we work 
together. The Republican chair and the ranking member Democrat 
agree that this is something that is worthy of a hearing. And 
EPA should have, as we have now passed a law that does not give 
them an option. It was a loophole, and you agreed to that.
    Let us talk about the primacy issue. So the Michigan 
Department of Environmental Quality has primacy, and that means 
that they have the responsibility for the public water system. 
And something that was interesting to me, they did not provide 
the corrosion control. Why not?
    Mr. Edwards. For the life of me, I cannot figure this out. 
This is such a specialized skill. That's why we have a law that 
says thou shalt have corrosion control. We have people at the 
State, at the primary agency to make sure that law is followed. 
So for the life of me, I do not understand why it was not 
followed because every dollar you spend on corrosion control 
not only protects from lead, it saves $10 at minimum in terms 
of damage to your pipe infrastructure. And in Flint's case it 
would have saved $10,000 for dollar invested.
    Ms. Lawrence. Mr. Earley, you are an appointee of the 
State. The Michigan Environmental Department is a State. Can 
you tell me why, have you been advised or told why the Michigan 
Department of Environmental Quality did not provide erosion 
control? Was it financial? Was it, oops, we forgot, because 
there was clear documentation that EPA, although they did not 
tell the public, made them aware.
    You in your capacity as an appointee of the State, has 
anyone made you aware of why they did not provide the 
corrosion?
    Mr. Earley. No, that has not been brought to my attention. 
The issue of the corrosion control and all of that came pretty 
much after I was there. As I tried to say earlier, the issues 
we were dealing with were related to the TTHM and the other 
contaminants.
    Ms. Lawrence. And that is a good point because clearly 
water that we drink out of our faucets do not have that in 
there, so there should have been some chemical added to the 
water. It sounds as if they went to the Flint River and just 
turned on the faucet. So why did not they provide at minimum 
bacteria control?
    Mr. Earley. I cannot answer the reason why they did not.
    Ms. Lawrence. Did anyone while you were there ask that 
question? Why did they not treat the water in Flint?
    Mr. Earley. The questions we were asking during my tenure 
was how to deal with the contaminants that we knew were in the 
water, the TTHM, the E. coli, and the coliform.
    Ms. Lawrence. And at no time did anyone ask why in the City 
of Flint you would turn water on, make it go through the 
faucets for human beings to drink, and they are experts. You 
have a water treatment system, and no one treated the water.
    Mr. Earley. Well, the water was treated, but the corrosion 
controls were not there, and they were not part of the 
discussion.
    Ms. Lawrence. Sir, at first we had bacteria in the water. 
You do not have bacteria in water that is treated. So when we 
are talking about the corrosion control, that is for the lead. 
But under your leadership, it was contaminated water.
    Mr. Earley. Yes.
    Ms. Lawrence. And no one asked the question. So how do we 
know how to fix it if no one ever asked why would we in America 
in 2016 with you being in charge, and you signed the contract, 
regardless of who initiated it, and people in Flint, including 
yourself, knew that the water that was drinking had bacteria in 
it, which is unacceptable. At no time did we ask why did this 
happen.
    Mr. Earley. Of course we asked why did it happen as it 
related to ----
    Ms. Lawrence. And what was the answer?
    Mr. Earley. As it related to the issues that we were 
treating, we were told the protocols in which to treat the 
contaminants that we were working with, the TTHM and the E. 
coli, and the coliform treatments. The issue of lead treatment 
and lead corrosion ----
    Ms. Lawrence. I am not talking about lead. Let us talk 
about when you were there.
    Mr. Earley. Okay. Well, when I was there, we treated for 
the contaminants that were in the water. We followed the DEQ 
protocols for boiling water advisories on two separate 
occasions. When we still had problems with the water and we 
still were not ----
    Ms. Lawrence. In America we do not normally boil water. We 
turn on the faucet and drink it, and trust the government to 
provide us with water that is safe. If I was responsible for 
the public trust, that would have been my number one answer to 
make sure we did not have to keep boiling the water. Why did it 
happen?
    Mr. Earley. Well, when it happened the second time, I 
sought the ----
    Ms. Lawrence. The second time?
    Mr. Earley. Yes, because we were told after we did the 
things that we had done before, we were given all clears for 
the water, and that the treatment, the precautionary measures 
had worked.
    Ms. Lawrence. I served as the mayor of a local community, 
and this is my core problem with emergency managers. At any 
time did you hold a public meeting with the citizens to find 
out what their concerns were? Did you hold public input 
meetings?
    Mr. Earley. There were meetings held after the issue of the 
contamination when I left in January. There were meetings held 
after that.
    Ms. Lawrence. But while you were there, you did not engage 
the public.
    Mr. Earley. We did not have meetings ----
    Ms. Lawrence. You did not engage the public.
    Mr. Earley. The water staff did engage the public as 
complaints came in and were a part of trying to find solutions 
for the problems that we were dealing with.
    Ms. Lawrence. This is a fundamental problem with emergency 
management philosophy is that you report only to a bottom line 
and to the governor, and that the voice of the people are 
eliminated in this process.
    Mr. Chair, I know I am over, but may I ask one more 
question? I want to ask this question when it comes to primacy. 
See, I am infuriated that someone made the deliberate decision 
not to treat this water when the primacy or the responsibility 
of drinking water rests with the State. Yes, we should hold EPA 
accountable. We have passed a law now from all sides, both 
sides agreeing that this shall not, EPA must notify the public 
and stop the water.
    But before that, how do we get our arms around as a 
congressional body that no State will take the arrogance and 
the destructive criminal, I feel, criminal activity to poison 
people? How do we get there?
    Mr. Edwards. I would like to know that question myself, how 
this decision was made to not follow the law. I mean, did they 
forget? Were they trying to save money? I really have no idea.
    Ms. Lawrence. Mr. Earley, he said he was sitting there in 
charge as emergency manager. You do not know the answer. Mayor 
Walling, can you give me an answer?
    Mr. Walling. I do not have an answer because the initial 
treatment design did not include the carbon filter that later 
had to be added. That actually meant there was additional 
chlorine and the TTHM problem. So there was no corrosion 
control. There was no carbon filter. All of these warning signs 
that were going off, they all go back to the original treatment 
design that the MDEQ and the emergency manager put in place and 
budgeted for in June of 2013.
    And we are still waiting on answers as to how those 
decisions actually got made, what the considerations were. I do 
not know.
    Ms. Lawrence. I yield back my time. This is where we need 
to go because we cannot have this happen again. Thank you.
    Chairman Chaffetz. I thank the gentlewoman. I now recognize 
the gentleman from Alabama, Mr. Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman. Mr. Edwards, in an 
email recently released to the public dated September 11th, 
2015, EPA's Michigan program director states the following: 
``Just to clarify, on our call I wanted to remind you that 
Miguel's report had the DEQ cc'd. So if the legislature or 
whoever might say you were all cc'd, you can truthfully respond 
that it was the EPA's request that the report not be sent to 
the cc's. Consequently, you all never received the report from 
Miguel. Good to talk with you all.''
    The program director was referring to Miguel del Toral's 
memo that had recently been made public and is addressed to a 
number of employees with EPA.gov and Michigan.gov domain names. 
It appears to function to instruct such employees on a way to 
circumvent public and legislative accountability. It also 
portrays government collaboration to manage and a spin a 
situation.
    When you see an email like this, Mr. Edwards, what does it 
tell you about the government prioritizing obfuscation over 
protecting the public interest?
    Mr. Edwards. Well, it is very clear that MDEQ and EPA were 
working hand-in-hand to cover this problem up as reflected by 
that email with Jennifer Crooks. And this revisionist history 
where EPA was fighting MDEQ every step of the way is just 
ludicrous.
    Mr. Palmer. What does this email tell you about the EPA's 
continued disregard for Mr. del Toral's warnings?
    Mr. Edwards. I just do not know how you could have 
disregarded those warnings as they did. They just sat there 
silent.
    Mr. Palmer. Well, there has got to be a reason for why they 
did not want his warnings to get out there, why they wanted to 
apparently give cover.
    Mr. Edwards. They provided all kinds of cover for MDEQ at 
every step of the way. Every step of the way EPA was there 
covering up for MDEQ.
    Mr. Palmer. Do you believe it provides cover, that a memo 
like that was intended to provide cover?
    Mr. Edwards. Well, MDEQ actually took her advice in the 
letter responding to Kildee. They basically cited that excuse 
verbatim.
    Mr. Palmer. Do you believe this email shows at a minimum 
callous disregard for public safety?
    Mr. Edwards. Amongst a few EPA employees. The vast majority 
of EPA employees at Region 5 come to work every day and do 
their best to do their job under difficult circumstances.
    Mr. Palmer. I thank you for that clarification because I 
agree with you that most, and I believe this is true across the 
board with Federal employees. They come to work every day to do 
the best job they can, but it is that handful who do not that 
create problems like this, and that cause incredible suffering 
for the public.
    Ms. Hedman, or I should, I guess, refer to you as ``Dr. 
Hedman.'' Following up on the questions posed earlier regarding 
outstanding FOIA requests, the email I read to Dr. Edwards 
shows the EPA Michigan program director, your former colleague, 
emailing other EPA and Michigan employees to their official 
accounts to provide them cover from the legislature or whoever 
who might theoretically ask about their exposure to Mr. del 
Toral's memo. It is worth noting that the program director sent 
this from her personal Gmail account to their official email.
    EPA has a history of using such methods to circumvent 
transparency. For instance, Gina McCarthy has been called 
before this committee or, I believe, it was the Science 
Committee, for example, because of using her personal email for 
government business.
    This is email that I read today appears to me to be 
evidence of a deliberate intention to mislead going back to the 
fact that most employees try to do the best they can and that a 
handful do not. I think that this indicates that there is a 
culture of secrecy and a lack of a transparency that starts at 
the top. How would you respond to that?
    Ms. Hedman. I would respond by saying that EPA has a policy 
of not using personal email, and if there is an instance where 
it is necessary for technical reasons to copy one's government 
account.
    Mr. Palmer. Well, you know, she did that 6 weeks later. I 
have a copy of the law here, Title 44, regarding Federal 
records that requires that indicates, Mr. Chairman, that she 
did not copy this in a timely manner. You know, this is not 
about finger pointing, and that is what troubles me about this 
hearing. It is not about politics. It is about these people who 
have suffered injury because of the failure of government.
    And I just want to say this. I believe every member of this 
committee has a responsibility to get to the truth, to make 
sure that government fulfills its responsibility to serve the 
public and, in this case, to protect the public. We want the 
truth.
    I have gotten to know a lot of members on this committee, 
and I can assure you we can handle the truth, the whole truth. 
Mr. Chairman, I am just not at all confident that we have heard 
the whole truth today.
    I yield back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from New Jersey, Ms. Watson Coleman, 
for 5 minutes.
    Ms. Watson Coleman. Thank you, Mr. Chairman, and thank you 
to you and our ranking member for holding this hearing. This is 
indeed a sad day and a little bit confusing how we get to the 
bottom of something when everyone is pointing their finger in 
another direction with the exception of Mayor Walling and Mr. 
Edwards.
    Mr. Edwards, I want to ask you a question that has nothing 
to do with Flint. My State, the State of New Jersey, is 
experiencing a knowledge of high lead content, particularly in 
11 cities, but right now concentrating on one city. Do you know 
whether or not EPA is at all monitoring or getting involved in 
that situation at this early stage so that we will not have a 
Flint, Michigan situation?
    Mr. Edwards. My suspicion is that they are probably not, 
although they did send that memo. And, again, I applaud this 
that they sent the memo out that basically said thou shalt stop 
cheating on the Lead and Copper Rule monitoring. It took too 
long to get to that point, but that memo has gone out. It is 
not going to help you in the short term because it is going to 
take 6 months before those rules are changed.
    Ms. Watson Coleman. Mr. Chairman and Ranking Member 
Cummings, I believe that this issue is broader than what we are 
experiencing in this very sad situation. And I very much would 
look forward to having an Oversight Committee hearing on EPA's 
role in this whole issue across the United States, because I 
think it will be very revealing and very scary what is 
happening in our older, poorer communities. And so, I make that 
request for your consideration.
    Ms. Hedman, where is Mr. del Toral?
    Ms. Hedman. Where is he ----
    Ms. Watson Coleman. Where is he?
    Ms. Hedman. Physically right now?
    Ms. Watson Coleman. Working? Where is he working? Where is 
he located? Where is he working?
    Ms. Hedman. Well, he works out of the Region 5 office. I 
know that recently he has spent a great deal of time in Flint, 
so he may very well be there working right now.
    Ms. Watson Coleman. So let me ask you this question. For 50 
years, Flint, Michigan was receiving its water from the Detroit 
system. Is that correct?
    Ms. Hedman. [Nonverbal response.]
    Ms. Watson Coleman. So for that 50 years, the water 
treatment system in Flint was dormant? Is that fair?
    Ms. Hedman. [Nonverbal response.]
    Ms. Watson Coleman. Okay. Was there any requirement that 
before you reactivate a dormant system that you do certain 
precautionary testing and preparation?
    Ms. Hedman. I know that there are requirements, but I 
cannot speak to the specifics.
    Ms. Watson Coleman. Are there any EPA requirements?
    Ms. Hedman. Again, I cannot speak to the specifics of that.
    Ms. Watson Coleman. Mr. Edwards, can you answer that 
question?
    Mr. Edwards. The law requires that when you switch to a new 
water source that you do corrosion control studies in advance 
of the switch to make sure that you have effective corrosion 
control in place. And in the absence of doing a study, the 
simplest thing, the minimum that would have been allowed under 
the law would have been to continue the corrosion control that 
was used in Detroit water, which would have been dosing of 
orthophosphates.
    So had they done the minimum under the law, adding that 
orthophosphate to the Flint River water, which had been done 
for 50 years under Detroit, the vast majority of these 
problems, including the leaking pipes, the Legionella, the 
lead, would not have occurred.
    Ms. Watson Coleman. So tell me, give the timeframe because 
I am confused somewhat about the timeframe when this should 
have happened. Should that have happened in April of 2014?
    Mr. Edwards. This should have been done months before the 
switch.
    Ms. Watson Coleman. The switch was April of 2014?
    Mr. Edwards. Yes.
    Ms. Watson Coleman. And who was the emergency manager 
during that period of time?
    Mr. Edwards. I do not know at all.
    Ms. Watson Coleman. Do you know, Mr. Earley?
    Mr. Earley. Yes. In April of 2014, I was the emergency 
manager.
    Ms. Watson Coleman. So then why did you not as the 
emergency manager ensure that before this switch was going to 
take place that all of the safety and security measures were in 
place?
    Mr. Earley. I did, and I was assured that all that were 
required had taken place. We had been monitoring this switch. 
Again, as I said, the project started before I got there, and 
once I got there, we continued to monitor, and I received 
updates from ----
    Ms. Watson Coleman. Well, Mr. Earley, who told you? Who 
assured you that these safety and security measures were in 
place before actually turning on the switch?
    Mr. Earley. The director of the Department of Public Works, 
which is also the director of the Flint Water Treatment Supply 
or Water Treatment Department. It was his responsibility to 
make sure that all of those things were in place, and he had 
staff working with him. And they in turn worked directly with 
MDEQ and the EPA to make sure we were meeting all of the 
requirements. Those were the requirements for being licensed.
    Ms. Watson Coleman. So now we have introduced another 
level, the local sanitation department or water department 
manager?
    Mr. Earley. The treatment people at the water plant.
    Ms. Watson Coleman. The treatment people?
    Mr. Earley. Yes.
    Ms. Watson Coleman. So now it is was his responsibility to 
ensure that these measures were in place, and he is the one 
that informed you that these measures were in place. He 
misrepresented?
    Mr. Earley. That we were meeting the requirements ----
    Ms. Watson Coleman. Did he misrepresent? Did he tell you 
the truth?
    Mr. Earley. Well, we all know now that the information that 
we all got was somewhat misinformed based on ----
    Ms. Watson Coleman. Where did the lie start?
    Mr. Earley. Well, the information that we got was from MDEQ 
which governed our switch from the Detroit Water and Sewer 
Department to the Flint River. We relied on the information we 
received from the State regulatory agencies.
    Ms. Watson Coleman. I cannot believe my 5 minutes is up so 
quickly ----
    [Laughter.]
    Ms. Watson Coleman.--because God knows we have not gotten 
to the bottom of this yet. But thank you, Mr. Chairman. I yield 
back. This is incredibly upsetting.
    Chairman Chaffetz. I thank the gentlewoman. I will now 
recognize the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman. Ms. Hedman, I am 
correct when I say that EPA has the authority to intervene when 
there is contamination in drinking water that poses a threat to 
humans. Is that correct? Yes.
    Ms. Hedman. When there is a threat and the State has failed 
to ----
    Mr. Carter. When there is a threat to human, EPA has the 
authority to intervene, correct.
    Ms. Hedman. And the State has failed to take action.
    Mr. Carter. Come on, Ms. Hedman. EPA has responsibility to 
the citizens. You have to intervene not when the State does not 
do it. When you see that it happens, you have to do it then. 
No, no. I will ask the questions, okay?
    You are aware of the memo that came in June of 2015 from 
Miguel del Toral, right? You are aware of that memo. In June of 
2015, Mr. del Toral's title was regulations manager, 
Groundwater and Drinking Water Branch. He is a Drinking Water 
specialist.
    Ms. Hedman. Yes.
    Mr. Carter. In fact, I believe that he was one of the key 
members of your Safe Drinking Water team.
    Ms. Hedman. Yes.
    Mr. Carter. In fact, I believe that you have said he is one 
of the top experts in his field.
    Ms. Hedman. He is.
    Mr. Carter. He is. Yet when Mr. del Toral reported the high 
levels of lead in Flint's drinking water, not only did you 
silence him, but you sat around idly and did nothing. Why would 
you do that?
    Ms. Hedman. I did not do that.
    Mr. Carter. If he is an expert as you have acknowledged, 
why did you not listen to him?
    Ms. Hedman. I did, and I did not sit silently. I did not --
--
    Mr. Carter. I beg to differ, Ms. Hedman. Instead of heeding 
the warning of one of your top experts, one of your top 
experts. Listen, all of us here, we depend on people. We depend 
on staff, but if we do not listen to them, they do us no good 
whatsoever. You surround yourself with good people, as you did. 
You surrounded yourself with a specialist. You got to listen to 
him, but you did not do that.
    Ms. Hedman. I did.
    Mr. Carter. Not only did you not listen to him, you tried 
to silence him.
    Ms. Hedman. I did not.
    Mr. Carter. You know, so what did you do? You sought a 
legal opinion. Is that correct?
    Ms. Hedman. Well, immediately ----
    Mr. Carter. Immediately.
    Ms. Hedman. Immediately in June, I offered technical 
assistance to the Flint mayor. That was July 1st. On July 10th, 
we issued our first statement urging Flint residents to get 
their water tested, and to take precautions to limit ----
    Mr. Carter. Here you have an expert who is telling you we 
have got a problem. We have got lead in our drinking water. 
Instead of protecting the citizens, that is what EPA is about, 
environmental protection. EPA, Environmental Protection Agency.
    Ms. Hedman. Yes.
    Mr. Carter. Protecting the public, and instead of saying we 
have got an expert here, one of my team members who is an 
expert in this field is telling us we have got lead in this 
water, stop drinking it. Stop drinking it right now. But you 
did not do that. You sought a legal opinion ----
    Ms. Hedman. No.
    Mr. Carter.--because you were wanting to follow the law?
    Ms. Hedman. No. Let us be clear. The data reported in Mr. 
del Toral's memo was data related to one residence, first of 
all. My first question about that was had the lead surface line 
been removed. It was, and the follow-up testing showed that the 
water was safe to drink. And then two neighboring houses, one 
of which did show high lead levels and one which did not.
    That data by itself indicated something about the tap water 
in those three residences, and ultimately Mr. del Toral's final 
version of the memo concluded that the residents with very high 
lead levels had high lead levels not due to lack of corrosion 
control, but because of physical disturbance of the lead 
surface line.
    Mr. Carter. Because a physical disturbance of the lead 
surface line.
    Ms. Hedman. Construction in the street.
    Mr. Carter. Construction in the street. You know, I ----
    Ms. Hedman. And so, the point being his memo also made the 
point that corrosion control had not been implemented in Flint. 
That was a point that previously other ----
    Mr. Carter. Dr. Hedman, I am sorry. Dr. Edwards, what do 
you make of this?
    Mr. Edwards. I am kind of wondering if she has read the 
memo to this day because there are three reports that the city 
had collected high lead in drinking from LeAnne's house, 100, 
300, 700 parts per billion before there was any disturbance. 
And moreover, her statement that she warned Flint residents to 
start flushing the water, no Flint residents got a warning that 
the water was unsafe to drink. What they got is Mr. Walling 
going on TV and saying that the water is safe to drink. That is 
what the message that was sent.
    No Flint resident got any warning about dangerous levels of 
lead in drinking water, the fact that corrosion control laws 
were not being followed in Flint. No one knew that.
    Mr. Carter. You know, let me tell you. Ms. Hedman, I am 
sorry, there is a special place in hell for actions like this. 
Madam Chair, I yield.
    [Applause.]
    Chairman Chaffetz. The gentleman yields back. I recognize 
the gentleman from California, Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman. I would like to start 
with the national issues and then come down to Flint. We know 
that in addition to Flint, we have had lead-tainted water in 
Washington, D.C., in Sebring, Ohio, and now in Newark, New 
Jersey, where schoolchildren have been poisoned. Ms. Hedman, 
this really is a national issue as well, is it not?
    Ms. Hedman. Given that I am no longer at the Agency, I do 
not want to speak for EPA. But indeed lead is an issue of 
concern throughout the country.
    Mr. Lieu. I have two articles here. One is a report from 
the NRDC that says, ``Study Finds Safe Drinking Water in U.S. 
Cities At Risk: NRDC Reports On Drinking Water Systems of 19 
Cities and Finds That Pollution, Old Pipes, and Outdated 
Treatment Threaten Tap Water Quality.'' And then I have a 
second article in Salon. It says, ``It's Not Just A Flint 
Problem: Other U.S. Cities Are Suffering From Toxic Water.'' 
And, Mr. Chairman, if I could enter these into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lieu. Ms. Hedman, I am going to read you a couple of 
sentences from the Salon article. The author writes, ``The Safe 
Drinking Water Act, enacted in 1986, required the EPA to set 
standards for the concentration of lead in public pipes with a 
push for lead free. This stirred the country on a road towards 
replacing old water pipes with plastic pipes as an ecofriendly 
alternative. However, many poor municipalities instead turn to 
anti-corrosive agents as a cheaper and faster solution.''
    If Flint had plastic pipes, none of us would be here today, 
correct?
    Ms. Hedman. That is true.
    Mr. Lieu. In fact, if Sebring, Newark, and Washington, D.C. 
had plastic pipes, none of that lead contamination would have 
happened, correct?
    Ms. Hedman. That is true, although if there were lead in 
fixtures, it would still be a concern.
    Mr. Lieu. I understand. Thank you. Now, let us talk about 
Flint. Mr. Earley, I read your testimony, and I heard it today 
as well. You essentially say everything was fine, and everyone 
told you everything was fine. And you had regular meetings with 
the water treatment officials. Did you know that the water 
treatment plant operator, Michael Glasgow, wrote an email 
saying, ``I have people above me making plans to distribute 
water ASAP. If water is distributed from this plant in the next 
couple of weeks, it will be against my direction.'' So it was 
not fine for Michael Glasgow. Were you aware of that?
    Ms. Hedman. I was--oh, I am sorry.
    Mr. Lieu. Mr. Earley, yes.
    Mr. Earley. I was made aware of that email when I sat 
before the governor's task force. It was the first time I had 
seen that email. So I am not sure what he is referring to when 
he talks about people above him because there were at least two 
other layers, possibly two other layers of supervision before 
it got to me.
    Mr. Lieu. So even though you regularly, as you said, 
regularly met with water treatment plant officials, you had no 
idea that the water treatment plant operator had said I am not 
ready to go on this. You had no idea.
    Mr. Earley. No, there was no discussion on that in our 
regular meetings. What was going on ----
    Mr. Lieu. All right, stop. Stop right there. You also 
testified that this was not a leadership issue. This was purely 
a water treatment issue. I suggest that this was a leadership 
issue if you had no idea, even though you had regular meetings, 
that this water treatment plant operator was making these 
statements that he was not ready to go.
    I am curious. You know, Mr. Walling, I commend him for 
saying I am sorry and for apologizing. That took courage. Mr. 
Earley, I do not see anywhere in your testimony. Are you ready 
to say you are sorry?
    Mr. Earley. What I said and will say again is that, you 
know, I was responsible. It happened on my watch.
    Mr. Lieu. Are you sorry?
    Mr. Earley. I feel very badly about that, and, yes, I am 
sorry that the people of the City of Flint have had to go 
through--I said that earlier--this crisis. It tears me up 
inside. I am very regretful and remorseful for what has 
happened.
    Mr. Lieu. All right. Ms. Hedman, the EPA knew in April that 
corrosive agents were not being put in. Why did it take so long 
for them to let you know at the end of the June that that was 
not happening?
    Ms. Hedman. I think from the review of the emails that I 
have seen during that time period that the first reaction was 
if we simply tell MDEQ they need to do this, they will do it.
    Mr. Lieu. When were corrosive agents actually put in?
    Ms. Hedman. December 9th is when corrosion control began.
    Mr. Lieu. Okay. So April, May, June, July, August, 
September, October, November, children of Flint were drinking 
lead-contaminated water. Why in July or August did you not just 
stand up and yell and scream, stop this? Give them bottled 
water. Why did it take so long? To me, this is negligence 
bordering on deliberate indifference.
    You knew. EPA knew in April corrosive agents not done. In 
June you were notified of that, and then you were given a 
report that said lots of lead in this drinking water. And then 
nothing is done until December. There is no excuse for that. 
Someone needed to have yelled and screamed and said stop this. 
People are being poisoned. It should have been done in at least 
July or August, maybe September, at least by October.
    That was so wrong. This was a crime of epic proportions 
that could have been prevented. I yield back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentleman from South Carolina, Mr. Mulvaney, for 
5 minutes.
    Mr. Mulvaney. I thank the chairman. I thank the committee. 
I will try and, I guess, start as simply as I know how, which 
is, Mr. Edwards, I think at the end of Mr. Carter's testimony, 
he asked a question of Ms. Hedman, and I will go ahead and ask 
it. He asked, did you warn Flint residents to flush their 
water?
    Ms. Hedman. On July 10th, 10 days after I first learned 
about this, EPA Region 5 issued the first statement advising 
Flint residents to get their water tested by their water 
utility, and referring them to EPA information on the Web about 
limiting exposure to lead in drinking water.
    Mr. Mulvaney. So is that your testimony when you said you 
gave them warning to flush their water? That is what you are 
referring to?
    Ms. Hedman. Right. That was the first time that we did 
that.
    Mr. Mulvaney. Okay. That was in July.
    Ms. Hedman. July 10th.
    Mr. Mulvaney. I am looking at an email that has been 
mentioned a couple of times, and to the extent it has not been 
entered into the record, Mr. Chairman, it is an email of Miguel 
del Toral dated September 22nd, 2015. I ask it to be added to 
the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Mulvaney. Are you familiar with this email, Ms. Hedman?
    Ms. Hedman. I am not sure what the email is.
    Mr. Mulvaney. That begins, it is to Thomas Ploy, Rita Bair, 
Nicholas D'Amato, Joanna Glowacki, and Andrea Porter amongst 
others from Miguel del Toral, September 22nd, 2015. It begins, 
``This is no surprise. Lead lines plus no treatment equals high 
lead in water, equals lead poisoned children.'' Are you 
familiar with that email?
    Ms. Hedman. Only hearing it from you.
    Mr. Mulvaney. Okay. If you read down the email, and by the 
way I think the email is an email that you sent Mr. Edwards 
that was then forwarded. I will get to that in a second I hope. 
It says, ``Even worse, absent anything from EPA, MDEQ, and the 
city other than they are in full compliance, other folks have 
to alert the public to the risk.'' Do you get the impression 
from the email that Mr. del Toral thinks that the EPA warned 
the folks in Flint in September to flush their water?
    Ms. Hedman. We had been told on August 31st by MDEQ, it was 
MCH, the old acronym for the Michigan Department of Health and 
Human Services, was, in fact, implementing a public information 
campaign. On September 15th, I held calls with both the mayor 
and with the director of MDEQ urging expedited implementation 
of corrosion control and expanded public information campaigns. 
And the mayor and the county did issue a health advisory with 
that kind of information 10 days later.
    Mr. Mulvaney. All right. I wish I could go into every 
single of those. I know Dr. Edwards is probably eager to do 
that. You said something earlier today, which I think took a 
lot of us off guard, surprised a lot of people sitting here 
when you did not think the EPA had done anything wrong through 
this entire process. And my guess is if I asked you for 
evidence of that, you would lay out what you have just laid 
out. We did this on this date, this on this date.
    Let me ask you this. Is that the standard to which you held 
yourself at the EPA just not to do anything wrong?
    Ms. Hedman. No.
    Mr. Mulvaney. What was the standard to which you held 
yourself when you were with EPA?
    Ms. Hedman. To do the best job possible.
    Mr. Mulvaney. Did you do the best job possible?
    Ms. Hedman. In retrospect knowing what I know now, I wish 
we had issued more frequent and more urgent statements about --
--
    Mr. Mulvaney. But it is still your belief and your 
testimony that the EPA and you did not do anything wrong in 
handling the Flint situation.
    Ms. Hedman. As I said, I wish we had done more. I wish when 
MDEQ represented facts to us we had verified those facts.
    Mr. Mulvaney. Let me ask you about that because that is 
another thing you said that, again, caught me a little bit off 
guard. It says the EPA, yes, in answer to questions from 
someone--I apologize, forgetting who --is supposed to step in 
to protect safety, but only if there is a threat, which clearly 
there was, and the State has failed to act. Do you remember 
that testimony?
    Ms. Hedman. Yes. Yes.
    Mr. Mulvaney. Is it your testimony then the State had not 
failed to act?
    Ms. Hedman. At which point in time?
    Mr. Mulvaney. At any point in time. Pick one. I do not 
care. Mr. del Toral's email of September 22nd, had the State 
failed to act by that time?
    Ms. Hedman. By that time, the State had issued an order to 
Flint directing Flint to implement corrosion control, and he 
mayor had announced that he was going to take that action.
    Mr. Mulvaney. Not my question. My question is had the State 
failed to act?
    Ms. Hedman. The State had taken some actions, and let me --
--
    Mr. Mulvaney. Not the standard. You said the EPA is not 
really supposed to get involved unless there is a threat, 
number one, and the State has failed to act, number two. So I 
am asking you as of September, had the State failed to act.
    Ms. Hedman. We were involved, and the legal advice that I 
received at that time ----
    Mr. Mulvaney. You were involved, but people were still 
drinking lead-contaminated water. How is that possible?
    Ms. Hedman. There are two things that we tried every day to 
make happen. One is implementation of corrosion control.
    Mr. Mulvaney. Okay.
    Ms. Hedman. And two is a public information campaign to 
make sure that Flint residents knew what they needed to do to 
reduce risk until corrosion control worked.
    Mr. Mulvaney. I am not going to have nearly enough time to 
do any of this. I do want to ask Dr. Edwards one question. You 
said something, sir, earlier that interested me as well, which 
you said that in a different environment this would be 
criminal. What did you mean when you said that? I apologize if 
that is not the exact words, but you did use the words 
``criminal.''
    Mr. Edwards. I think in any environment it is criminal when 
you know children are being harmed and not being protected by 
Federal law, and you sit there silent.
    Mr. Mulvaney. And if I ----
    Mr. Edwards. I would point out Virginia Tech issued the 
first warning to not to drink the water in August 2015. MDEQ 
invoked the authority of EPA in its response to the press to 
our warning about the dangers of Flint water to say the water 
was safe to drink. EPA sat there silent at a minimum as the 
State attacked us for saying Flint water was not safe to drink.
    Mr. Mulvaney. If I had done this as a terrorist to the 
children of Flint and I got caught, would I be in jail?
    Mr. Edwards. I have already said if a landlord did this, he 
would be in jail.
    Mr. Mulvaney. Or a builder, a homebuilder, which is what I 
used to do. If I built a house that poisoned my residents the 
same way the City of Flint has done it, I would be in jail, 
would I not? Which leads to my last question. Ms. Hedman, 
should the government be held to a different standard than its 
citizens?
    Ms. Hedman. Everyone should be required to follow the law.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentlewoman from the Virgin Islands, Ms. Plaskett, for 5 
minutes.
    Ms. Plaskett. Thank you, Mr. Chairman, Mr. Ranking Member. 
Witnesses, thank you for being here this morning.
    Mr. Earley, on February 2nd, the governor of Michigan, Rick 
Snyder, issued a State informing the public of your resignation 
that was going to be effective on February 29th. Have you seen 
that press release?
    Mr. Earley. Yes.
    Ms. Plaskett. Okay. And in it, it states, and I am going to 
quote here, ``Governor Snyder and I agreed that our goal was 
for me to be the last emergency manager appointed to DPS. I 
have completed the comprehensive restructuring necessary to 
downsizing the central office.'' That is your quote, correct?
    Mr. Earley. That is.
    Ms. Plaskett. And do you remember giving the quote to the 
governor for the press release for that?
    Mr. Earley. Excuse me?
    Ms. Plaskett. Do you remember giving the governor that 
quote for his press release?
    Mr. Earley. Yes, I remember. Not directly to him, but I 
discussed it with his communications people, yes.
    Ms. Plaskett. Okay. And that press release and your 
resignation came a day before, less than 24 hours before this 
committee was having a hearing on Flint, Michigan on February 
3rd. Chairman Chaffetz and Ranking Member Cummings sent a 
letter in January for you to testify at that time, but you 
refused to come.
    When you were giving the quote to the governor's office for 
the press release the day before the hearing took place, did 
you have a conversation with the governor or with those 
individuals in his office about testifying before this 
committee?
    Mr. Earley. No, my conversations regarding the letter that 
you refer to took place before that. They were only drafted on 
the first of February because we had pretty much done all in 
Detroit Public Schools as an emergency manager that I would be 
able to do.
    Ms. Plaskett. So you discussed with him around February 1st 
your resignation on February 2nd and what the quote was going 
to be. But you knew that you had a pending request to testify 
before this committee at that time. Is that not correct?
    Mr. Earley. The exact ----
    Ms. Plaskett. Did you know that you had to testify, that 
there was a request for you to testify on February 3rd when you 
were having discussions with the governor and his staff about 
your resignation on February 1st or 2nd?
    Mr. Earley. We had that discussion prior to the 2nd.
    Ms. Plaskett. You just said the 1st.
    Mr. Earley. Well, the 1st. The press release came out after 
the ----
    Ms. Plaskett. The press release came out on February 2nd, 
less than 24 hours before this hearing. In your discussions 
with the governor about that press release, did you discuss 
with him your request, the request for you to testify before 
this committee?
    Mr. Earley. It had nothing to do with the ----
    Ms. Plaskett. It is a yes or a no. Yes or no, did you 
discuss it with him?
    Mr. Earley. Yes.
    Ms. Plaskett. You did discuss testifying before this 
committee?
    Mr. Earley. I did discuss that I had received the 
invitation, yes.
    Ms. Plaskett. And what was said during that discussion?
    Mr. Earley. That I had received an invitation.
    Ms. Plaskett. And the governor, did he direct you to comply 
with that?
    Mr. Earley. No.
    Ms. Plaskett. And you did not at that time, so clearly you 
had a discussion with the governor, a governor who has said he 
wants transparent and accountability for the individuals that 
are working, and you worked for the pleasure of the governor. 
He did not direct you to testify when the request had been by 
the House Committee on Oversight and Government Reform about 
this.
    So on February 2nd when Chairman Chaffetz's staff informed 
your lawyer that the chairman was considering issuing a 
subpoena to compel you to testify before the committee on that 
day, did you discuss that with the governor?
    Mr. Earley. No, I had that discussion with the attorney 
because I had to seek out some advice as to respond to the 
initial invite because I did not have time to prepare for a 
hearing. I was more than willing and certainly wanted to come 
forward and discuss the facts of this. That had nothing to do 
with my appointment at Detroit Public Schools.
    Ms. Plaskett. But your appointment was made by this same 
governor, and you have within you to discuss it with him, and 
you are serving at his direction. And even though that 
discussion has taken place, your attorney that you said you 
sought out about the subpoena, you told the attorney and asked 
him to refuse to accept the service of the chairman's subpoena 
because you said you did not have time to coordinate your 
testimony, but you had time to coordinate on October 26th your 
op-ed in which you said do not blame the emergency manager for 
the Flint water disaster, and outlined reasons why that was 
your position at that time.
    Mr. Earley. No, I did not discuss the subpoena in terms of 
not coming to this hearing. That was never a discussion that I 
had. I sought counsel because I wanted to understand the 
process. The invitation was what I said that I was not prepared 
to attend, not the subpoena.
    Ms. Plaskett. So you did not tell your attorney to refuse 
service of the subpoena ----
    Mr. Earley. No.
    Ms. Plaskett.--that was potentially being ----
    Mr. Earley. No.
    Ms. Plaskett. Okay. That is important for us to note for 
the record. We have an email that says that you were being told 
that a subpoena was going to be issued to you at that time. You 
are aware of that?
    Mr. Earley. I do not recall ----
    Ms. Plaskett. We have the email, Mr. Earley. Do you want me 
to put it on the screen?
    Mr. Earley. Yes, if you would, please.
    Ms. Plaskett. Okay. Could we do that? And at that time, 
while they are putting that up, that email exchange with your 
attorney, so now you are saying that the attorney did not tell 
you that you were supposed to potentially be subpoenaed to 
testify before this committee?
    Mr. Earley. I sought advice of counsel on the issue 
regarding the invitation, and then declined the invitation 
because I did not have an opportunity to ----
    Ms. Plaskett. I have moved on from the invitation. I am now 
talking about the subpoena.
    Mr. Earley. Okay.
    Ms. Plaskett. Did you have a discussion with your attorney 
about service and acceptance of the potential subpoena?
    Mr. Earley. That is an attorney-client issue that I would 
like to refer to my attorney to answer if that is possible.
    Ms. Plaskett. I am glad he is not a potted plant in this 
one and he is going to give you some advice about that. That 
was very good.
    So did you inform the governor that you were going to 
refuse to testify even after a potential subpoena was going to 
be issued?
    Mr. Earley. No, I did not.
    Ms. Plaskett. And did the governor ever instruct you to 
cooperate with this committee, and did they encourage you to 
comply with the request when it was an invitation?
    Mr. Earley. No, it was strictly my decision based on my 
conversation with my counsel about preparation for a very 
important hearing. And that was pretty much the extent of it.
    Ms. Plaskett. And so, the governor did not tell you yes or 
no whether he thought it was a good reason that you should or 
should not testify.
    Mr. Earley. The governor did not advise me on that because 
I sought legal advice on that.
    Ms. Plaskett. No, no, no. We went by earlier, in your 
testimony you said that you let the governor know that you had 
an invitation to testify. Did he respond to that particular 
comment that you made to him?
    Mr. Earley. I think the response was, as I recall it, was, 
you know, it is your decision, do what you have to do. Do what 
you, you know, you feel most comfortable doing.
    Ms. Plaskett. Do we have the email? No? Okay, thank you. 
Thank you very much. And actually, Mr. Chairman, I know it is 
unusual, but the gentlewoman from Michigan wanted me to yield 
time to her. But, you know, in getting a witness to actually 
answer a question, it was a little difficult. Would you give us 
the indulgence of allowing her?
    Chairman Chaffetz. Under House rules you can do a second 
round, but we need to go through everybody first.
    Ms. Plaskett. Thank you. Okay, thank you, sir.
    Chairman Chaffetz. So we are going to actually now 
recognize gentlewoman from New Mexico, Ms. Lujan Grisham.
    Ms. Plaskett. Thank you, sir.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. Then I will be 
happy to provide a minute to my colleague, Ms. Lawrence, and 
yield to her.
    Ms. Lawrence. I have a question for each of them. Mr. 
Edwards, in your communications on this issue, do you feel that 
governor knew what was happening?
    Mr. Edwards. I have not seen emails that showed that he 
knew about ----
    Ms. Lawrence. Do you feel he should have known?
    Mr. Edwards. I feel that the governor should have listened 
more to the people of Flint and been less trusting of EPA and 
MDEQ.
    Ms. Lawrence. Mr. Walling, in your role, would the governor 
or should the governor have known, or are you aware that he 
knew? You said you contacted his office. Did he know?
    Mr. Walling. He knew of the issues we had in January of 
2015 because we did have a follow-up phone call. From the 
emails that I have seen, it appears that all of his senior 
aides were aware of extensive issues with MDEQ and DHHS.
    Ms. Lawrence. Okay, thank you. Mr. Early, you were his 
direct appointee. Did you communicate with the governor? Was 
the governor aware of this water situation in Flint?
    Mr. Earley. The situation that I communicated to the 
governor involved, as I have said, the contamination issues 
that we were trying to manage when I was there. I had no 
discussions with the governor regarding lead corrosion or lead 
contamination.
    Ms. Lawrence. But you communicated with him that there was 
a water issue in the City of Flint.
    Mr. Earley. Yes, when we switched.
    Ms. Lawrence. Ms. Hedman, did you communicate directly with 
the governor's staff, the governor, to inform him of the 
situation that was happening with EPA and the water situation 
in Flint?
    Ms. Hedman. My only communication with the governor's staff 
occurred in the days leading up to the announcement of the 
Flint action plan, which I think occurred on October 2nd.
    Ms. Lawrence. Thank you. I yield back the rest of my time.
    Ms. Lujan Grisham. Mr. Chairman, thank you very much. So I 
am going to try to dig a little deeper in that context because 
what we all want is good and effective government. And for me 
it is irrelevant whether that good and effective protective 
government is at the Federal level, at the State level, or the 
local level. It should all be working to serve and protect its 
citizens.
    And, Ms. Hedman, I appreciate your recognition that you 
could have been more vigorous, but in the context of is the 
State's primary responsibility, and that when a State fails, as 
was the case in Michigan, we have a terrible end result. We 
have people drinking unsafe water. And I think people want to 
know if the State of Michigan's failures are typical of other 
State governments, which it should cause all of Congress to 
think about the role of Federal government, EPA, and what we do 
about State accountability in this regard.
    Now, Ms. Hedman, in a footnote in your written testimony, 
you mentioned a drinking water crisis that occurred in Toledo, 
Ohio in 2014. Was the danger to human health in that crisis, 
was there danger?
    Ms. Hedman. There was. It was the toxin microcystin.
    Ms. Lujan Grisham. And how long did it take the mayor of 
Toledo, based on that message from you, to issue a do not drink 
notice?
    Ms. Hedman. He immediately issued a do not drink order.
    Ms. Lujan Grisham. So he immediately reacts. Did the Ohio 
EPA resist the sampling protocol EPA was recommending as MDEQ 
did in the case of Flint?
    Ms. Hedman. No, not at all. They took on board all of the 
sampling advice and worked very closely with our Cincinnati 
labs ----
    Ms. Lujan Grisham. And, in fact, in your written testimony 
you commend Governor Kasich for his handling of that particular 
crisis. In fact, you note that he called on the National Guard 
immediately.
    Ms. Hedman. Immediately. Governor Kasich said he would call 
out the National Guard to deliver bottled water, and he did it.
    Ms. Lujan Grisham. So I take it that you believe that there 
is a serious critical difference between the response of 
Governor Snyder and the response of Governor Kasich.
    Ms. Hedman. Yes.
    Ms. Lujan Grisham. In in our investigation of the Michigan 
crisis, the committee received startling testimony from the 
former head of the Michigan Department of Environmental 
Quality. He told us that the topic of the Flint water crisis 
never even made it to the agenda of Governor Snyder's cabinet 
meetings. Never, not once.
    In your experience working with Ohio, did Governor Kasich 
make Toledo's drinking water a priority of his entire 
administration?
    Ms. Hedman. Well, I can tell you that he not only responded 
quickly in terms of calling out the National Guard to get the 
water out. After the entire scenario had ended, I believe that 
he actually reached out and thanked ----
    Ms. Lujan Grisham. So we can see a stark and dramatic 
difference between the responsibility of these two States. And 
I think it is the job of this committee to make sure that the 
Federal government, the State government, and the local 
government are doing all it can, and should, and is requested 
to do to protect its citizens, correct?
    Ms. Hedman. I agree.
    Ms. Lujan Grisham. Thank you. So one last thing. I am about 
out of time. But, quite frankly, given this testimony, if 
Governor Snyder had reacted the Flint water crisis in the same 
in which Governor Kasich reacted to the Toledo water crisis, do 
you believe it would have made a significant difference to 
human health and safety in regards to the drinking water 
situation in Flint, Michigan?
    Ms. Hedman. I do.
    Ms. Lujan Grisham. Thank you. I yield back.
    Chairman Chaffetz. I thank the gentlelady. I have a few 
more questions I would like to go through.
    Ms. Hedman, you have cited repeatedly how urgent it was and 
how important it is. We spent over the course of 3 days a 
transcribed interview with Mr. Dan Wyant. Do you know who he 
is?
    Ms. Hedman. Yes. He was the director of MDEQ.
    Chairman Chaffetz. When did you have the first conversation 
with him about the concerns of what is going on in Flint, 
Michigan?
    Ms. Hedman. I know from checking my records that I 
definitely had a conversation with him on September 15th right 
before I had a conversation with the mayor. I believe I also 
had a shorter conversation with him on September 1st as part of 
a commissioners roundtable.
    Chairman Chaffetz. At least according to Mr. Wyant, and it 
is a little while ago, his first conversation with you was 
September 27th. Now, whether it is the 15th or the 27th, can 
you see the concern that it took that long before you actually 
talked to the person who is in charge of the Michigan 
Department of Environmental Quality? What the heck are you 
doing if you are not calling him?
    Ms. Hedman. So, again, I believe I also talked with him on 
the 1st. But the point ----
    Chairman Chaffetz. Okay, September 1st. Okay. So I am going 
to go ahead and give you a little latitude there. I do not 
believe you because I do not see any reason to trust you. But 
let us assume that that is true for a second. Why did it take 
so long?
    Ms. Hedman. My staff was reporting ----
    Chairman Chaffetz. So it was your staff's fault.
    Ms. Hedman. No, no. No, no, no, that Michigan was taking 
the required action, that Michigan was reporting that there was 
going to be a public information campaign. And if Michigan 
staff had said we will not issue the order that EPA has 
required, then I would have gone directly to the director.
    Chairman Chaffetz. But they did not, did they?
    Ms. Hedman. They did on August 17th.
    Chairman Chaffetz. So this is the fundamental problem with 
government and big government. It is, oh, well, we will 
delegate this instead of just picking up the phone and talking 
to somebody and having a discussion with them. They have these 
emails here. For instance, this one is dated October 1st where 
he was led to believe that you actually supported what they 
were doing. And this is the communication back and forth that 
Mr. Edwards talks about that.
    Where they are then led to believe that they are actually 
in compliance. In fact, it is later on even in November when 
the EPA admits that the Lead and Copper Rule is ambiguous. 
There is not clarity there. They admit that. It is your own 
internal email.
    Mr. Edwards, can you comment on this? You have been so good 
at giving a perspective on all this, but for those that do not 
how to read these reports, what is your analysis of that?
    Mr. Edwards. Well, I think that EPA was embarrassed by how 
long it took them to actually act, that it became a national 
and international embarrassment by that point. And then what 
are they going to do, say that they knew there was no confusion 
right from the start?
    When I read that memo, it was essentially a get out of jail 
free card for both EPA and MDEQ. We not understand our own law 
is essentially what that memo said. So I just thought it was 
absurd.
    Chairman Chaffetz. Ms. Hedman, are you familiar with the, 
we had a hearing here in July of last year about you and your 
region. Are you familiar with that?
    Ms. Hedman. I did hear about it. I was actually visiting 
some Indian tribes in northern Minnesota when that occurred.
    Chairman Chaffetz. So did you get a follow up? Did you read 
about? Tell me what you know about that.
    Ms. Hedman. I did, and I was very, very concerned about 
some of the allegations that were made. And let me say as 
someone who has been an intern here on Capitol Hill in the 
1970s, and someone who early in my career experienced both 
sexual harassment and sexual discrimination, I have zero 
tolerance for that in the workplace.
    Chairman Chaffetz. Then why did we have three of your 
employees do a very brave and courageous thing, and step 
forward, and testify to Congress that you tried to retaliate 
against them for talking about this, that some of them were 
asked to remove the investigators. I mean, it is one thing when 
I get one person, but when we get three people testifying 
before Congress, putting their lives, and their livelihood, and 
their careers on the line, there is some smoke there, is there 
not? Are you telling me you did nothing wrong?
    Ms. Hedman. I can tell you that I asked for a follow-up to 
look into those allegations, and ----
    Chairman Chaffetz. And what was the conclusion?
    Ms. Hedman. At no point did anyone ever present any 
evidence that those allegations were, in fact, true.
    Chairman Chaffetz. We sat here for a couple of hours and 
heard testimony. There is some evidence there. I just wish you 
were at the EPA so I could call on you to be fired because you 
should have never been in this position. It is so frustrating. 
This is what happens.
    99 percent of the people, good Federal employees. They are 
patriotic. They are hardworking, and they do the right thing. 
And then we get somebody who comes along who spoils it. They 
are bad apples, and they just say, oh, I will just retire, full 
benefits, full everything. That was absolutely fundamentally, 
totally wrong.
    Ms. Hedman. Mr. Chairman, I do want you to know that I 
appointed a new assistant regional administrator who has 
aggressively dealt with these kinds of situations. And I 
personally recall a case where we removed someone for sexual 
harassment, and another case, which the inspector general gave 
us very high marks for where we removed an individual who 
viewed child pornography on a Federal computer. And he is in 
Federal prison.
    Chairman Chaffetz. Well, and there are ongoing 
investigations right now by the inspector general, and this 
should have been dealt with at a much higher level.
    Let me go on to Mr. Walling. I need help, Mayor, for some 
clarification. You became the mayor in 2009 in a special 
election. Elected, reelected, in 2011. But I honestly do not 
know what this means, but I want to understand.
    In your bio, you were the chairman of the Karegnondi Water 
Authority from 2010 to 2015. Were you paid or compensated in 
any way, shape, or form for being the chairman of the KWA?
    Mr. Walling. I was not. I served as a function of being 
mayor. The mayor of an incorporating community in that 
authority serves as does the current mayor serves in that role 
now.
    Chairman Chaffetz. So when you become the mayor, you then 
get to be the head of that, you know, because one of the 
concerns is are there conflicts of interest because essentially 
the KWA gets $200 million or so to start building this 
pipeline, and that puts you in a pretty powerful position to 
direct dollars, and locations, and knowledge ahead of time. It 
gives you essentially insider information, does it not?
    Mr. Walling. It is a major project. It was a major 
responsibility. The chairmanship came to me through an election 
of the members of that authority. That happens on an annual 
basis the officers of that authority are elected.
    Chairman Chaffetz. Are you here to testify, again, I just 
want to be clear. I do not want to disparage you unfairly in 
any way, shape, or form, but I need to know from you personally 
here. Did you benefit personally in any way, shape, or form 
from that assignment and that knowledge?
    Mr. Walling. No, I did not, Mr. Chairman.
    Chairman Chaffetz. Okay. Mr. Edwards, tell me what DEQ, in 
your opinion, Michigan Department of Environmental Quality, 
what did they do right and what did they do wrong? Did they do 
anything right?
    Mr. Edwards. No.
    [Laughter.]
    Mr. Edwards. Honestly as I sit here, I cannot thing of a 
single thing they did right.
    Chairman Chaffetz. Did the EPA do anything right?
    Mr. Edwards. Mr. del Toral did everything every EPA 
employee should aspire to do. His memo could have made EPA the 
heroes here in this particular case. Even despite the 10 years 
of allowing utilities to cheat on the Lead and Copper Rule 
prior to that time, he realized the danger that puts children 
in.
    Chairman Chaffetz. And what is your personal assessment of 
what the governor has done or is doing now?
    Mr. Edwards. Well, unlike EPA, the governor has taken 
responsibility for what occurred. Certainly he was guilty of 
not listening to Flint residents. Certainly he was guilty of 
being overly trusting of MDEQ and EPA. But at present he says 
that he wants to be part of the solution, and he is actively 
engaged in this. And so, I am willing to work with anyone who 
wants to be part of the solution, and I think he is sincere 
about trying to help Flint get back on its feet.
    Chairman Chaffetz. We are about to have a vote called on 
the floor. If the Ranking Member has another--yes.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Earley, I am little stunned by what you told Representative 
Plaskett. You said that you talked to the governor's office 
about our request for you to testify on February 3rd. And by 
the way, that was a joint request, Democrats and Republicans.
    And you said that the governor never directed you to 
cooperate with us, the House Committee on Oversight and 
Government Reform, and that they just told you to do whatever 
you had to do. Is that correct?
    Mr. Earley. Well, basically it was, you know, to make my 
own decision about going. And because it was, as I said, an 
invitation and I was not prepared to sit before this committee, 
I declined the invitation, and that was the extent of the 
conversation I had with the governor. But the subpoena that you 
are referring to or that has been referred to was issued a 
night before. I could not have gotten here physically to do 
that. So, you know, and it was never served on me. So my 
announcement basically that, you know, I was declining the 
invitation was in hopes that I could enough time to prepare, 
and to get here, and to meet with this committee.
    Mr. Cummings. Now, you also had said that you had had some 
discussions with the governor. Did you have discussions with 
Mr. Muchmore? Do you know who he is?
    Mr. Earley. Yes, I know Mr. Muchmore.
    Mr. Cummings. And did you have discussions with him about 
what was going on in Flint with regard to the water?
    Mr. Earley. Not specifically. He was a part of some of the 
meetings that we had as we were briefing them on the progress. 
But, again, this was all on the contamination issues prior to 
the lead leeching issues that we now deal with.
    But they were apprised of the progress we were making and 
converting from DWSD to the use of the Flint River during the 
interim while the KWA was being completed. Yes, we had those 
discussions.
    Mr. Cummings. Okay. Did it surprise you that Mr. Wyant had 
told us that it was never brought up in the governor's cabinet 
meetings?
    Mr. Earley. That is a surprise.
    Mr. Cummings. Why do you say that?
    Mr. Earley. Well ----
    Chairman Chaffetz. This was a major thing, right? I mean, 
this was not ----
    Mr. Earley. Yes. Yes. That is a surprise. I was not a part 
of the governor's cabinet, yeah.
    Mr. Cummings. I understand that.
    Mr. Earley. So I did not know what was being discussed in 
those meetings, and I can only take that as, you know, a 
comment from a former employee.
    Mr. Cummings. Mr. Walling, did you have discussions with 
Mr. Muchmore?
    Mr. Walling. I did on a few occasions, a phone call.
    Mr. Cummings. And was he aware of what was going on, I 
mean, in Flint ----
    Mr. Walling. Yes.
    Mr. Cummings.--with regard to the water?
    Mr. Walling. Yes.
    Mr. Cummings. And so, is it fair that you would have had 
more conversations with him than you would have had with the 
governor?
    Mr. Walling. Yes, I did. I would call the chief of staff 
and also one of his direct reports, Harvey Hollins, who is his 
urban initiatives director, was in, you know, regular 
communication with us even as elected officials during the 
emergency manager.
    Mr. Cummings. One of the things that we concluded is that 
the governor probably did not do a lot of communicating in 
writing with regard to this event, this whole water thing and 
crisis. So, therefore, in order for us to get any kind of 
information we needed, we needed to talk to folks. And that is 
the 15 people we were trying to get to including Mr. Muchmore 
and I think the other gentleman you just mentioned. And, again, 
they refused to talk to us, so hopefully they will have a 
change of heart.
    I yield back.
    Chairman Chaffetz. Thank you. I recognize Ms. Plaskett for 
a moment.
    Ms. Plaskett. Thank you, Mr. Chairman. We were concerned 
about this email, and I do have the redacted version of for you 
and for your attorney if you would like at some point to have a 
look at this. And you may want to make an amendment to your 
testimony after such a review. The chairman and the staff can 
make this available for the both of you.
    Chairman Chaffetz. We will allow 72 hours for such 
clarification.
    Ms. Plaskett. Thank you.
    Chairman Chaffetz. Thank you. We have a vote on the floor. 
I want to thank the four of you for your time. This is very 
illuminating. Again, our hearts, and prayers, and thoughts go 
to the people who actually live in Flint who were affected by 
this and are going to continue to be affected by this.
    We look forward to part three of our hearing with Governor 
Synder as well as the EPA administrator. And that will take 
place in this room on Thursday at 9:00 a.m.
    We stand adjourned.
    [Whereupon, at 1:37 p.m., the sub/committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
